<html>
<title> - REGULATORY REFORM SERIES, PART 7: THE EPA'S REGULATORY PLANNING, ANALYSIS, AND MAJOR ACTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   REGULATORY REFORM SERIES, PART 7: THE EPA'S REGULATORY PLANNING, 
                      ANALYSIS, AND MAJOR ACTIONS 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

                           Serial No. 112-87


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-209 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
SUE WILKINS MYRICK, North Carolina     Ranking Member
JOHN SULLIVAN, Oklahoma              JANICE D. SCHAKOWSKY, Illinois
TIM MURPHY, Pennsylvania             MIKE ROSS, Arkansas
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
MARSHA BLACKBURN, Tennessee          EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     1
    Prepared statement...........................................     4
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     9
Prepared statement...............................................    11
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    13
Prepared statement...............................................    14
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................    17
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    21
    Prepared statement...........................................    23
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    25

                                Witness

Lisa P. Jackson, Administrator, Environmental Protection Agency..    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................   181
    Additional answers for the record............................   201

                           Submitted Material

Report, dated September 2011, ``Anti-Environment Votes in the 
  112th Congress,'' by Democratic staffs of Committee on Energy 
  and Commerce and Committee on Natural Resources, submitted by 
  Mr. Waxman.....................................................    39
Letter, dated September 20, 2011, from Nicholas A. Brown, 
  President & CEO, et al., Southwest Power Pool, Inc., to Ms. 
  Jackson, submitted by Mr. Burgess..............................    78
Letter, dated June 16, 2011, from Mark McPherson, Chief of Staff, 
  Office of Administration and Resources Management, 
  Environmental Protection Agency, to Amer Al-Mudallal, National 
  Treasury Employee Union Chapter 280, submitted by Mr. Burgess..    82
Letter, dated August 11, 2011, from Mike Strain, Commissioner, 
  Louisiana Department of Agriculture & Forestry, to Mathy 
  Stanislaus, Assistant Administrator, Office of Solid Waste and 
  Emergency Response, Environmental Protection Agency, submitted 
  by Mr. Scalise.................................................    87
Online article excerpt, ``Mercury Emission Control R&D,'' 
  undated, Fossil Energy Office of Communications, Department of 
  Energy, submitted by Mr. Griffith..............................    89
Majority staff slide presentation, submitted by Mr. Stearns......    90
Report, dated August 2011, ``Improving Our Regulations: Final 
  Plan for Periodic Retrospective Reviews of Existing 
  Regulations,'' Environmental Protection Agency, submitted by 
  Ms. DeGette....................................................    96
Article, dated August 18, 2011, ``CAP Analysis Disproves Claims 
  About the Economic Effects of Strengthened Ozone Protections,'' 
  by the Center for American Progress, at ThinkProgress.org, 
  submitted by Ms. DeGette.......................................   158
Report, undated, ``Catalyzing American Ingenuity: The Role of 
  Government in Energy Innovation,'' American Energy Innovation 
  Council, submitted by Ms. DeGette..............................   167
Report, dated February 2011, ``New Jobs--Cleaner Air: Employment 
  Effects Under Planned Changes to the EPA's Air Pollution 
  Rules,'' Ceres and the Political Economy Research Institute, 
  submitted by Ms. DeGette.......................................   173


   REGULATORY REFORM SERIES, PART 7: THE EPA'S REGULATORY PLANNING, 
                      ANALYSIS, AND MAJOR ACTIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

                  House of Representatives,
       Subcommittee on Oversight and Investigation,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Murphy, Burgess, 
Blackburn, Myrick, Bilbray, Gingrey, Scalise, Gardner, 
Griffith, Barton, Upton (ex officio), DeGette, Schakowsky, 
Castor, Markey, Christensen, Dingell, and Waxman (ex officio).
    Staff present: Charlotte Baker, Press Secretary; Jim 
Barnette, General Counsel; Anita Bradley, Senior Policy Advisor 
to Chairman Emeritus; Patrick Currier, Counsel, Energy and 
Power; Andy Duberstein, Special Assistant to Chairman Upton; 
Todd Harrison, Chief Counsel, Oversight; Kirby Howard, 
Legislative Clerk; Heidi King, Chief Economist; Carly 
McWilliams, Legislative Clerk; Dave McCarthy, Chief Counsel, 
Environment and Economy; Mary Neumayr, Senior Energy Counsel; 
Krista Rosenthall, Counsel to Chairman Emeritus; Alan Slobodin, 
Deputy Chief Counsel, Oversight; Sam Spector, Counsel, 
Oversight; Peter Spencer, Professional Staff Member, Oversight; 
Kristin Amerling, Democratic Chief Counsel and Oversight Staff 
Director; Alvin Banks, Democratic Investigator; Brian Cohen, 
Democratic Investigations Staff Director and Senior Policy 
Advisor; Jacqueline Cohen, Democratic Counsel; Greg Dotson, 
Democratic Energy and Environment Staff Director; Kelley 
Greenman, Democratic Legislative Assistant; Alexandra Teitz, 
Democratic Senior Counsel, Environment and Energy; and Anne 
Tindall, Democratic Counsel.
    Mr. Stearns. Good morning, everybody. The Subcommittee on 
Oversight and Investigations will come to order, and I will 
open with my opening statement.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ladies and gentlemen, this past January, President Obama 
issued Executive Order 13563 to improve regulations and the 
regulatory review process, noting that our regulatory system 
``must protect public health, welfare, safety, and our 
environment while promoting economic growth, innovation, 
competitiveness, and job creation.''
    With job creation and the Nation's economic recovery the 
focal point, the subcommittee has sought to get a clearer 
understanding of agency regulatory action under this 
administration. Today, in our seventh hearing in this effort, 
we will examine the EPA's regulatory planning, analysis, and 
major actions taken.
    While we agree with the principles outlined in the 
Executive Order, we are disappointed that EPA does not seem to 
have followed those principles. Time and time again over the 
last 3 years, we have seen the EPA issue oppressive new 
regulations that have dramatically raised the costs of doing 
business in the United States, and, indeed, have driven 
numerous American companies out of business altogether.
    The EPA is unquestionably an important public health 
regulatory agency, which has contributed to the tremendous 
improvements in clean air, safe drinking water and 
environmental quality over the past 40 years. It is also an 
agency that wields tremendous influence over the essential 
ingredients of economic recovery: the cost of manufacturing, 
construction and power production, the reliability of energy, 
the certainty of future rules and standards in the decisions 
that drive the Nation's commerce.
    Since the beginning of this administration, EPA has issued 
or proposed a number of large, complex, and expensive rules. 
The pace of these rulemakings is such that it is not always 
clear EPA has fully considered or fully informed the public 
about the potential negative consequences of its actions on the 
United States economy, jobs creation, and our ability to 
compete with countries around the world.
    Now, consider the decision in the first weeks of the 
administration to pursue an endangerment finding for greenhouse 
gases. This formed the regulatory predicate for setting fuel 
efficiency standards for cars and trucks, at an EPA-estimated 
cost of about $60 billion. The President announced the prospect 
of this new regulation at a Rose Garden ceremony. But there was 
no public discussion about the fact that the new regulation 
also would have automatically triggered new permitting 
requirements required by the Clean Air Act for all stationary 
sources of greenhouse gas emissions. These permitting 
requirements meant that 82,000 stationary sources annually 
would need to obtain preconstruction permits. Another 6.1 
million sources would need to obtain operating permits. EPA 
estimated that, absent a rulemaking to exempt the majority of 
these sources, the permitting costs alone would be $193 billion 
over just a 3-year period. The cost of ceasing operations or 
not initiating new projects was never taken into account.
    To avoid this absurd and self-imposed economic calamity, 
EPA issued ``tailoring'' rules to exempt most, but not all 
sources, but left open the possibility of sweeping more 
entities into the new permitting regime at a later date. This 
affects the entire U.S. economy, as the future of greenhouse 
gas permitting exists under a cloud of uncertainty.
    Now, in another case, in January 2010, EPA chose to 
reconsider ground-level ozone standards set just recently in 
2008. Although the proposed standards would potentially sweep 
vast areas of the Nation into noncompliance and cost upwards of 
$90 billion per year, the agency sought to rush and issue final 
standards in just 8 months. The agency missed that deadline but 
was still promising to issue final standards, until the 
President himself, recognizing that issuing such a rule would 
cause him severe electoral problems in the next election, 
recently requested that the Administrator refrain from issuing 
the ozone rule at this time. The President is on board, 
however, with issuing onerous new regulations in 2013--after 
the election.
    Just yesterday, this committee reported legislation to 
provide adequate time for EPA to develop standards for 
hazardous air pollutants for boilers and cement plants, after 
it became apparent that EPA's complex and admittedly rushed 
rulemaking results in requirements simply unachievable in the 
real world.
    Under the Clean Air Act, the Resource Conservation and 
Recovery Act and various other statutes, EPA appears to be 
rushing forward with rulemakings that just don't make sense for 
those who know what it takes to implement them and those 
concerned with ensuring we simply have a vital economy.
    It does not appear that the President's stated priorities 
for thoughtful, transparent and sound rulemaking have taken 
hold at the EPA. I am particularly interested in learning about 
EPA's future regulatory plans and how the cumulative impacts of 
its rules inform its planning. Does EPA consult adequately with 
other agencies? Does EPA operate openly with affected 
stakeholders, States, and the public? These are important 
questions. I look forward to our discussion with the Honorable 
Lisa Jackson.
    [The prepared statement of Mr. Stearns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. With that, I recognize the distinguished 
ranking member, Diana DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman, for 
convening this hearing.
    I think that oversight directed towards ensuring efficient 
and effective federal regulation is an important endeavor, and 
I like to work with the majority to have efforts to root out 
unnecessary and wasteful regulations. As a long-time member of 
this distinguished subcommittee, I believe the purpose of this 
committee is to investigate what can be done, not to forward a 
political agenda, and so I know we are going to have a heated 
discussion today, but I think we should keep it focused on 
exactly what regulations we are talking about, what the purpose 
is and in fact they are necessary.
    To that end, I am delighted to welcome our witness today, 
EPA Administrator Lisa Jackson. Administrator Jackson oversees 
implementation of some of the most important legislation ever 
passed by Congress, and it is my view that she is one of the 
most gutsy and effective members of the administration, so I am 
glad to have her.
    The main topic of the conversation today will be jobs. I 
know that my colleagues on the other side of the aisle will 
assert that environmental rules and regulations are stifling 
jobs and harming economic growth, but this is simply not the 
case. We need to keep in mind the purpose of the Clean Air Act: 
To protect the health of Americans.
    Now, in 2010 alone, the Clean Air Act prevented 160,000 
premature deaths, millions of respiratory illnesses, 3 million 
lost school days and 13 million lost workdays. By 2020, the 
Clean Air Act's total benefit to the economy will reach $2 
trillion, outweighing costs more than 30 to one.
    The Clean Air Act and other environmental laws do something 
else: They create millions of jobs and they could create 
millions more jobs if it weren't for the inaction of this 
Congress to pass climate change legislation. Compliance with 
the Clean Air Act generates investment in design, manufacture, 
installation and operation of equipment to reduce pollution. 
The environmental technology and services sector has grown 
steadily since the Act's adoption, generating $300 billion in 
revenue and supporting nearly 1.7 million jobs in 2008 alone.
    Clean Air Act rules recently announced by the EPA will only 
add to this remarkable record. For example, investment spurred 
by the Utility, Toxics and Cross-State Air Pollution Rules will 
generate 1.5 million new jobs by 2015. These will be high-
paying, skilled, professional jobs that cannot be outsourced.
    So Chairman, one of the biggest steps this committee could 
take to boost the economy would be to pass long-overdue 
legislation to combat climate change and usher in an era of 
clean energy. Now, you don't need to be a Democrat to believe 
this; you just need to live in a science-based world. Two years 
ago when this committee passed landmark climate legislation, we 
heard from business leaders that there were billions of dollars 
sitting on the sidelines just waiting for clear rules of the 
road to be drawn up for the Nation's energy future. I just met 
with the Colorado rural electric folks yesterday, who told me 
the same thing, and these business leaders continue to ask 
Congress to act.
    Just last week, for example, the America Energy Innovation 
Council led by people like Bill Gates, venture capitalist John 
Doerr and General Electric CEO Jeff Immelt implored the federal 
government to invest in clean energy technologies. I want to 
read to you from these leaders' recent report ``Catalyzing 
Ingenuity:'' ``Innovation is the core of America's economic 
strength and future prosperity. New ideas are the key to 
fostering sustained economic growth, creating jobs in new 
industries and continuing America's global leadership. Of all 
the sectors in the economy where innovation has a critical role 
to play, the energy sector stands out. Ready access to 
reliable, affordable forms of energy is not only vital for the 
functioning of the larger economy, it is also vital to people's 
everyday lives. It also significantly impacts the country's 
national security, environmental wellbeing and economic 
competitiveness.''
    Mr. Chairman, here is what these business leaders conclude: 
``Unfortunately, the country has yet to embark on a clean 
energy innovation program commensurate with the scale of the 
national priorities that are at stake.''
    Mr. Chairman, this committee should listen to these titans 
of the economy. We should be passing legislation to unleash 
American innovation and create American jobs in the new energy 
economy. Instead, unfortunately, this Congress is sitting on 
the sidelines pretending that scientific and economic realities 
do not exist. In March, every single Republican member of this 
committee voted against the overwhelming scientific consensus 
to deny the very existence of global climate change. Many 
Republican members are using the Solyndra debacle as an excuse 
to all-out cut energy funding. This denial of reality is bad 
for the economy and bad for the environment.
    So I am glad to have this discussion about the rules and 
regulatory reform efforts and I hope that we can come together 
in a science-based discussion to talk about new energy and the 
new economy.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentlelady and recognize the 
chairman of the full Energy and Commerce Committee, the 
distinguished gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Throughout this year, this committee has focused its 
oversight and legislation on identifying and mitigating the 
job-destroying impacts of burdensome regulations, and through 
its regulatory reform hearing series, this subcommittee's 
examination of the President's regulatory principles has helped 
to sharpen our focus on important gaps between the 
administration's rhetoric and reality.
    The rhetoric, which I agree with, is that we should 
implement reasonable and achievable regs to protect the health, 
safety and well-being of the American people, and we recognize 
that well-being must include ensuring economic growth and 
healthy job creation. The President has talked about the 
importance of cost-benefit analysis to ensure that regulations 
do more good than harm.
    The reality, unfortunately, is a regulatory onslaught from 
EPA that is destroying jobs and stifling economic growth with 
financial burdens and uncertainty, and in some cases, the cost-
benefit analysis is completely absent. In other cases, the 
devastating economic consequences of rules are flat-out 
ignored.
    Over the years, I have seen EPA conduct rulemakings on 
important Clean Air Act provisions, but I have never seen so 
many major rules from EPA at a pace and complexity as has 
occurred during this administration. These have been complex 
rules with profound impacts on energy production and 
manufacturing--essential contributors to economic growth in 
this country.
    In some cases, such as the boiler and cement rules, we have 
regs that are technically unachievable because EPA appears to 
be doing too much too fast. In other cases, the agency lays out 
rapid and changing deadlines and makes alterations to the 
rulemakings that raise questions about regulatory judgment and 
decision-making in the first place.
    We want the EPA and the administration to comply with its 
own principles as outlined in the President's Executive Order 
on regulation. Today we are going to hear directly from 
Administrator Jackson to learn just what steps she plans to 
take to ensure that these actions will begin to match the 
administration's regulatory rhetoric.
    I yield to my friend, the chairman emeritus of the 
committee, Mr. Barton.
    [The prepared statement of Mr. Upton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Well, thank you, Mr. Chairman, and welcome 
again, Madam Administrator. It is good to have you with us.
    There are many things that are ailing our country right 
now, Madam Administrator, and it seems that your agency appears 
to be at ground zero of a fair number of them. Since President 
Obama took office and you became the Administrator at the 
Environmental Protection Agency, the EPA has rushed to issue 
rules on greenhouse gases, which the Congress rejected in the 
last Congress; ozone, which our President just rejected several 
weeks ago; coal ash, boiler ash and our boiler MACT and cement 
industries, which those industries are strenuously objecting 
to.
    In my home State of Texas, last year the EPA revoked the 
flexible air quality permit rules that had been in place for 
almost 20 years starting with President Clinton, and just 
recently the EPA announced a Cross-State Air Pollution Rule 
where Texas, which wasn't even included in the rule 6 months 
ago, is expected to assume somewhere between 25 and 40 percent 
of the reductions. This is somewhat puzzling since our monitors 
indicate that we are in compliance, and it is an EPA model that 
seems to indicate that in certain States there might be a 
problem.
    The cost of all these rules is in the billions of dollars 
annually, resulting in thousands of jobs lost. Just last week 
in my State, in my Congressional district, a company that is 
subject to the Cross-State Air Pollution Rule announced the 
closure of two mines and reduction or closure of two power 
plants that in my district alone is probably going to cost in 
the order of magnitude of 1,000 jobs.
    We have a President who says that we need to create jobs, 
not destroy jobs. We have a President who says we need a 
regulatory environment that has a cost-benefit analysis. And 
yet your agency, the EPA, seems to ignore these admonitions. It 
is as if there is some evil genie at the EPA that is bound and 
determined to put every regulation possible on the books as 
soon as possible regardless of the economic consequences.
    I hope today, Madam Administrator, that we can get into 
some of these specific rules. We have a number of very specific 
questions that we want to ask, and as always, we look forward 
to having you answer them and tell us where your agency is.
    With that, I yield back.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. The gentleman yields back. There are 3 
seconds.
    Dr. Burgess, do you want to take 5, 10 seconds?
    Mr. Burgess. Well, let me just submit my entire opening 
statement for the record, but I do want to remind the 
Administrator, as we have had to remind every Cabinet 
Secretary, every head of the federal agencies, that although 
you work for the Executive Branch, Congress is a coequal branch 
of government. When we ask for stuff, you need to produce it. 
We have been stonewalled in this committee over and over again, 
and those days have to stop because the American people are 
asking serious questions. They want answers, and it is up to 
this committee to get those answers for them, and I will yield 
back.
    [The prepared statement of Mr. Burgess follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. I thank the gentleman, and now we recognize 
the----
    Mr. Waxman. Mr. Chairman, before you recognize me, I would 
like to ask the gentleman from Texas to provide for us examples 
of where you think EPA has stonewalled, not now but for the 
record, because this statement has been made and I would like 
to see verification.
    Mr. Burgess. And in particular dealing with Title 42 
regulations, and I have asked these questions----
    Mr. Waxman. I would like to see documentary information.
    Mr. Stearns. The gentleman from California is recognized 
for his opening statement for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    This hearing is our seventh hearing on regulatory reform, 
and we will be told by our colleagues across the aisle that EPA 
needs to do a better job. We will hear them say they need to 
better analyze regulations before finalizing them, they need to 
listen to concerns about their proposals before acting.
    But this hearing isn't really about regulatory reform. It 
is just a continuation of a long series of attacks on our 
environment and public health. This is the most anti-
environment House of Representatives in history. So far this 
Congress, the House of Representatives has voted again and 
again to block action to address climate change, to halt 
efforts to reduce air and water pollution, to undermine 
protections for public lands and coastal areas, and to weaken 
the protection of the environment in other ways.
    Mr. Chairman, my staff prepared a database last month on 
every anti-environmental vote taken in this Congress. The tally 
was 125. One hundred and twenty-five votes to weaken the Clean 
Air Act and the Clean Water Act; to make our drinking water 
less safe; to weaken environmental standards in dozens of 
different ways. This is an appalling and dangerous 
environmental record. And it should come as no surprise that 
this record of anti-environmental votes shows little concern 
for crafting well-analyzed policy that takes the views of all 
stakeholders into account.
    Today, the House will begin consideration of the TRAIN Act, 
a bill whose passage will block actions to clean up smog, soot 
and toxic air pollution from the Nation's power plants. When 
this bill is considered, we will vote on amendments offered by 
Chairman Whitfield and Representative Latta. The Whitfield 
amendment will eviscerate the law's ability to require power 
plants to install modern pollution controls. The Latta 
amendment will reverse 40 years of clean air policy, allowing 
our national goals for clean air to be determined by corporate 
profits, not public health. They will not agree that we need to 
have a hearing on the Latta amendment before reversing 40 years 
of success with the Clean Air Act. The Republicans will not 
clarify the bill on industrial boilers to prevent years and 
years of litigation and delay.
    We should hear from States, industry, public health groups, 
clean air advocates and other stakeholders before voting on 
these radical clean air amendments. These amendments are being 
considered through an egregiously flawed process, a stark 
change from the way this Committee has traditionally handled 
important clean air legislation. We should at least understand 
what they do before voting on them.
    And we are sitting here criticizing the EPA for all the 
work they put into their regulations before they issue them, 
and yet we are going to pass laws, at least pass it through the 
House, without a single moment of hearings just because some 
representatives want to and maybe the Republican party wants to 
respond to big business and forget about the safety and the 
wellbeing and the health of the American people.
    Well, today's hearing will provide an opportunity to hear 
from the Administrator of the EPA, and I am pleased to welcome 
Lisa Jackson. This is not the first time. I don't know how many 
times she has had to appear before this committee. I don't 
think she has time to do all the dreadful things the 
Republicans are accusing her of doing because she is spending 
most of her time here to listen to complaints from the 
Republicans about regulations, some of which they haven't even 
proposed and the Republicans want to repeal it.
    I will ask the Administrator about the Whitfield and Latta 
amendments and how dangerous they are to the American people. 
That will serve as some opportunity to examine these issues, 
and it will give us an opportunity to hear from the EPA 
Administrator about the impacts of the entire Republican anti-
environment agenda.
    Mr. Chairman, I have a minute left if any of my Democratic 
colleagues--Ms. Schakowsky, I yield the balance of my time to 
you.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Well, here we are again, and I want to 
reiterate just a bit what Representative Waxman has said. 
Clearly, we are witnessing the most anti-environment House of 
Representatives in American history.
    My colleague from Texas, the former chairman of this 
committee, was citing some of the things that have happened in 
Texas as a reason to undo some of the regulations that you 
proposed, but I just wanted to point out that under Governor 
Rick Perry's tenure, Texas has become far and away the Nation's 
largest CO<INF>2</INF> emitter. If Texas were its own country, 
as Mr. Perry has advocated in the past, it would be the eighth 
biggest polluter in the world.
    So it is high time that the Environmental Protection Agency 
continued in what has been a bipartisan tradition of protecting 
our environment, of protecting the health of Americans, and by 
the way, not destroying jobs in any way but creating an 
opportunity for new 21st century clean jobs, and I yield back.
    Mr. Stearns. The gentlelady yields back. Time has expired--
--
    Mr. Barton. Would the gentlelady yield to the former 
chairman?
    Mr. Stearns. All her time is expired, so we are going to 
move now to swear in Madam Administrator.
    Madam Administrator, you are aware that the committee is 
holding an investigative hearing, and when doing so has had the 
practice of taking testimony under oath. Do you have any 
objection to testifying under oath?
    Ms. Jackson. No.
    Mr. Stearns. The chair then advises you that under the 
rules of the House and the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during your testimony today?
    Ms. Jackson. No.
    Mr. Stearns. In that case, if you would please rise and 
raise your right hand, I will swear you in.
    [Witness sworn.]
    Mr. Stearns. You are now under oath and subject to the 
penalties set forth in Title XVIII, Section 1001 of the United 
States Code. You may now give a 5-minute summary of your 
written statement. Please begin.

    TESTIMONY OF LISA JACKSON, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Thank you. Chairman Stearns, Ranking Member 
DeGette and members of the subcommittee. I appreciate the 
opportunity to be here today to testify on the Environmental 
Protection Agency's regulatory process. It is a priority of the 
EPA and of this administration to ensure that our regulatory 
system is guided by science and that it protects human health 
and the environment in a pragmatic and cost-effective manner.
    One means by which this administration has made this 
priority clear is through Executive Order 13563, which includes 
a directive for federal agencies to develop a regulatory 
retrospective plan for periodic review of existing significant 
regulations. Under that directive, EPA has developed a plan 
which includes 35 priority regulatory reviews. Recent reforms 
already finalized or formally proposed are estimated to save up 
to $1.5 billion over the next 5 years.
    But let me clear: the core mission of the EPA is protection 
of public health and the environment. That mission was 
established in recognition of a fundamental fact of American 
life: regulations can and do improve the lives of people. We 
need these rules to hold polluters accountable and keep us 
safe. For more than 40 years, the agency has carried out its 
mission and established a proven track record that a healthy 
environment and economic growth are not mutually exclusive.
    The Clean Air Act is one of the most successful 
environmental laws in American history and provides an 
illustrative example of this point. For 40 years, the Nation's 
Clean Air Act has made steady progress in reducing the threats 
posed by pollution and allowing us to breathe easier. In the 
last year alone, programs implemented pursuant to the Clean Air 
Act Amendments of 1990 are estimated to have saved over 160,000 
lives, spared Americans more than 100,000 hospital visits and 
prevented millions of cases of respiratory problems including 
bronchitis and asthma.
    Few of the regulations that gave us these huge gains in 
public health were uncontroversial at the time they were 
developed. Most major rules have been adopted amidst claims 
that they would be bad for the economy and bad for employment. 
In contrast to doomsday predictions, history has shown again 
and again that we can clean up pollution, create jobs and grow 
our economy all at the same time. Over the same 40 years since 
the Clean Air Act was passed, the gross domestic product of the 
United States grew by more than 200 percent.
    Some would have us believe that job killing describes EPA's 
regulations. It is misleading to say that enforcement of our 
Nation's environmental laws is bad for the economy and 
employment; it isn't. Families should never have to choose 
between a job and a healthy environment; they are entitled to 
both.
    We must regulate sensibly in a manner that does not create 
undue burdens and that carefully considers both the benefits 
and the costs. However, in doing so, we must not lose sight of 
the reasons for implementation of environmental regulations. 
These regulations are necessary to ensure that Americans have 
clean air to breathe and clean water to drink. Americans are no 
less entitled to a safe, clean environment during difficult 
economic times than they are in a more prosperous economy.
    As President Obama recently stated in his joint address to 
Congress, what we can't do is let this economic crisis be used 
as an excuse to wipe out the basic protections that Americans 
have counted on for decades. We shouldn't be in a race to the 
bottom where we try to offer the worst pollution standards.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Jackson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. Thank you, Madam Administrator. I will open 
with my questions.
    I think as you can see from opening statements from our 
side and the other side, this is a question of promoting 
economic growth, innovation, competition and job creation. Is 
that your understanding of the principles that the agency must 
keep in mind when you make regulations?
    Ms. Jackson. Well----
    Mr. Stearns. Yes or no.
    Ms. Jackson. Yes, but we must also implement the laws.
    Mr. Stearns. On the first day of the administration, you 
were directed to comply with a similar Executive Order 12866 in 
a memo from the White House. Is that true?
    Ms. Jackson. I believe that is right, sir.
    Mr. Stearns. Do you agree that the regulatory system must 
promote predictability and reduce uncertainty?
    Ms. Jackson. I think that is the advantage of the 
regulatory system.
    Mr. Stearns. In the case of ground-level ozone standards 
that you proposed in January 2010, were there discussions with 
the White House about the impact of reconsidering this rule 
prior to submitting a draft final rule to the White House?
    Ms. Jackson. I am sorry. I didn't understand the question.
    Mr. Stearns. OK. In January 2010, when ground-level ozone 
standards were proposed, was there discussion between you and 
the White House about simply the impact of what these would be 
on this country?
    Ms. Jackson. The proposal went through White House and 
interagency review.
    Mr. Stearns. Did you meet and participate in discussions 
with the White House on those ozone standards?
    Ms. Jackson. I am sure that staff in preparation of 
interagency review did.
    Mr. Stearns. Did you personally meet with the White House?
    Ms. Jackson. On the proposed package in January of 2010, 
not to my recollection, sir.
    Mr. Stearns. OK. If you recollect differently, if you would 
be kind enough to submit to this committee who participated in 
those discussions, that would be helpful.
    Was there any reaction from the White House on the proposed 
ozone standards that were being proposed in January of 2010? Do 
you recollect what the reaction was in the White House?
    Ms. Jackson. The fact that the proposal went out shows that 
it cleared interagency review and was signed by me for public 
review.
    Mr. Stearns. So you assumed the White House was on board 
fully?
    Ms. Jackson. I don't assume anything, sir. I am giving you 
the facts as I know them.
    Mr. Stearns. OK. So you are saying the White House 
reactions, as much as you know them, were supportive?
    Ms. Jackson. The agency exercised its discretion to make 
rulemaking after an interagency review that was conducted and 
led by the White House.
    Mr. Stearns. I think there is a chief of staff memo which 
you cited yourself in the proposed ozone reconsideration as 
rationale for that reconsideration that was ultimately done. It 
did not direct any agency to reconsider the regulations that 
were being finalized, published. Did you consult with the White 
House before you decided to reconsider the 2008 ozone standard?
    Ms. Jackson. That is the same question you asked before 
about the proposal, sir.
    Mr. Stearns. OK.
    Ms. Jackson. No, my answer is the same.
    Mr. Stearns. Three weeks ago, the White House requested 
that you reconsider issuing the Ozone Rule, noting that the 
rule would not comport with the President's Executive Order and 
that our regulatory system must promote predictability and 
reduce uncertainty. Did you agree with the White House 
decision?
    Ms. Jackson. I respect the decision and I implemented it.
    Mr. Stearns. Did you personally agree with it?
    Ms. Jackson. Well, I don't think it is a secret that we--
that the recommendation we sent over and the package that we 
sent over was something different.
    Mr. Stearns. Yes, and the reason why you disagreed with the 
White House is because you felt, was it that the standards you 
thought were imperative to be implemented? Can you give us your 
rationale why you still feel strongly that the ozone standards 
should be----
    Ms. Jackson. Mr. Chairman, you are putting words in my 
mouth about what I feel, and my feelings----
    Mr. Stearns. I am helping you out.
    Ms. Jackson [continuing]. Aren't actually germane here.
    Mr. Stearns. OK. What changed between the time you proposed 
regulations in January 2010 and September 2, 2011, to warrant 
reconsideration in your mind if you went along with it? I mean, 
you are the Administrator. You have strong feelings on this. 
You don't agree with the President. You are going ahead with 
it. Can you make some kind of rationale why you are going ahead 
with it now? I am trying to understand it.
    Ms. Jackson. Well, the facts are that in between those two 
time periods, the President requested that we reconsider and do 
the reconsideration in light of new data that will come out 
such that that reconsideration will happen in 2013.
    Mr. Stearns. And what is that new data?
    Ms. Jackson. That is new public health data that will look 
at the connection between smog, ozone pollution and asthma and 
other health indicators.
    Mr. Stearns. Do you think this goes back to what I asked 
you when I began my questions? Your idea, my idea is the agency 
has the responsibility to promote economic growth, innovation, 
competition and job creation? Do you think that was part of the 
reasons why the President relaxed the standard on ozone 
standards?
    Ms. Jackson. Well, both the letter from Cass Sunstein and 
the President's statement explain his rationale and they speak 
for themselves.
    Mr. Stearns. Did the White House propose this to you any 
other time than just recently?
    Ms. Jackson. Propose what, sir?
    Mr. Stearns. Relaxation of the ozone standards.
    Ms. Jackson. No, the----
    Mr. Stearns. That was the first time they came to you?
    Ms. Jackson. That was the first time they came to me? The 
President's actions and his statement and the letter from Mr. 
Sunstein was the official record of what happened with respect 
to that package.
    Mr. Stearns. All right. My time is expired.
    The gentlelady is recognized, Ms. DeGette.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Administrator Jackson, let me try to clear up some of the 
questioning about the new ozone standards that the chairman was 
pursuing. On September 1st, the administration announced that 
the EPA would not be revising the National Ambient Air Quality 
Standards for ozone. Is that right?
    Ms. Jackson. That is right.
    Ms. DeGette. And this decision, as you know, was 
controversial. It created a number of extremely important new 
questions about how we are going to handle the ozone standards 
going forward. So I am wondering if you can tell us now sitting 
here today about the next steps you are going to be taking to 
ensure that States and localities have clear direction on what 
they should be doing with regard to ozone standards. I think it 
is important you clarify what you are going to be doing next.
    Ms. Jackson. Yes, ma'am. So we are going to proceed with 
the regular review in 2013 but simultaneously we are legally 
required to implement the standard that is on the books. The 
standard that is on the books now is the 2008 standard. It is 
75 parts per billion, and EPA will be notifying States in the 
days ahead of the path forward in implementing that standard.
    Ms. DeGette. So what you are saying is that the intention 
going forward that the EPA will enforce a 75 parts per billion 
standard, the same as the Bush administration 2008 standard. Is 
that correct?
    Ms. Jackson. That is right. That is the legal standard on 
the books.
    Ms. DeGette. OK. And can you assure us that States and 
localities will have sufficient time to meet those 2008 
standards?
    Ms. Jackson. We will do it in a commonsense way, minimizing 
the burden on State and local governments.
    Ms. DeGette. Thank you. Now, Administrator Jackson, the 
chairman was asking you about what the process is within the 
EPA about promulgating rules, and the EPA considers not just 
the effect on human health but also the economic effect per the 
Executive Order that he was talking about, correct?
    Ms. Jackson. That is right. Our rules have always, at least 
as long as I have been there, considered costs and benefits of 
rules.
    Ms. DeGette. So, you know, one of the things that 
frustrates me and others is this sort of Sophie's choice that 
has been articulated that I don't think is true, that you 
either have to have jobs or high environmental standards, and I 
want to talk about the Clean Air Act since we are talking about 
the Clean Air Act as an example. Since the Clean Air Act was 
signed in 1970, toxic air pollutants have gone down by 60 
percent and saved hundreds of lives, and so that is the main 
goal of the Clean Air Act, correct?
    Ms. Jackson. The Clean Air Act's goal is to clean up the 
air and therefore make people healthier.
    Ms. DeGette. Right, but in addition, the economy has grown 
since the Clean Air Act was promulgated. Is that correct?
    Ms. Jackson. That is right. GDP has grown over 200 percent.
    Ms. DeGette. So GDP has grown over 200 percent since the 
Clean Air Act's passage, correct?
    Ms. Jackson. That is correct.
    Ms. DeGette. Also, can you talk to us about the effect of 
the Clean Air Act on job creation?
    Ms. Jackson. Certainly. There have been numerous studies 
that show that the Clean Air Act has actually helped foster and 
growth a pollution control industry in this country that 
actually exports its innovations and technologies and of course 
puts them to work here on the ground. When we ask someone to 
spend money, millions or even billions, on pollution control, 
those are jobs that are generally produced here, everything 
from engineers to designers to welders to boilermakers.
    Ms. DeGette. And in fact, I read a study that said just in 
2008 all of those things generated $300 billion in revenue and 
supported nearly 1.7 million jobs. I talked about that in my 
opening. Are you aware of that study as well?
    Ms. Jackson. Yes, ma'am.
    Ms. DeGette. Now, I also read a study from the University 
of Massachusetts that estimated that EPA's Utility, Toxics and 
Cross-State Air Pollution Rules would generate 1.5 million new 
jobs by 2015. Are you familiar with that study?
    Ms. Jackson. Yes, generally.
    Ms. DeGette. OK. And what kind of jobs will compliance with 
those regulations create?
    Ms. Jackson. Those regulations require companies to invest 
in pollution controls, scrubbers or selective catalytic 
reducers. They are everything from working with steelworkers or 
pipe fitters or engineers, designers, those who actually 
install and operate pollution control equipment or those who 
retrofit equipment, and their jobs, because it is the utility 
industry, it is the energy industry, it has to be done here. It 
is something that we have to do here to invest in ourselves 
and----
    Ms. DeGette. Here in the United States?
    Ms. Jackson. That is right.
    Ms. DeGette. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from Texas, Mr. Barton, is recognized for 5 
minutes.
    Mr. Barton. Thank you.
    Madam Administrator, in your opening statement, you said 
that the role of the EPA is to make sure that polluters are 
accountable. Do you consider an industry that is in compliance 
with EPA regulation to be a polluter?
    Ms. Jackson. An industry can have a permit and be in 
compliance with the permit and still be emitting pollution, 
yes.
    Mr. Barton. But in your definition of a polluter, if an 
industry is actually complying, then why would you continue to 
call them a polluter as if they weren't complying?
    Ms. Jackson. Well, it is important for people to understand 
that in order to operate, there is an assumption that some 
amount of pollution into our air and water may have to happen. 
What we do, what our laws require EPA and States to do in their 
stead is to ratchet down that pollution in the interests of the 
public health.
    Mr. Barton. So would it be fair to say that in your 
definition, the only industry that would not be a polluter 
would be an industry that has no emissions at all, in other 
words, it was shut down?
    Ms. Jackson. If you don't emit pollution, then you are not 
a polluter. That is not to say that the emission of some amount 
of pollution is not permitted. That is the regulatory process.
    Mr. Barton. Let me rephrase the question, Madam. Is it the 
goal of the EPA to get to zero emissions, i.e., basically shut 
down the U.S. economy?
    Ms. Jackson. Of course not, sir.
    Mr. Barton. That is the right answer.
    You have appeared before this subcommittee and the full 
committee a number of times this year, and in at least two of 
those instances I have asked you to document some of these 
health benefits that EPA spokespersons and yourself continue to 
allude to as a reason for these new regulations. Unless your 
agency supplied them to my office last night or this morning, 
we have yet to receive them. Could you encourage them to 
actually give us the documents that document these repeatedly 
referred to health benefits?
    Ms. Jackson. Well, sir, I will say that the regulatory 
packages that we prepare include significant documentation of 
both the benefits and the costs of----
    Mr. Barton. You are not answering my question. I don't 
think they exist.
    Ms. Jackson. You don't think health benefits of clean air 
exist?
    Mr. Barton. No, I think health benefits from clean air do 
exist. I don't think some of these documents that you refer to 
exist or you would have complied with the request to submit 
them.
    Ms. Jackson. Sir, I will check on any requests for 
outstanding documentation but I would also refer you to the 
packages----
    Mr. Barton. I am giving you a request right now. I have 
given you respectful requests almost every time you have 
appeared before the subcommittee or the full committee, and you 
know, when you look in the footnotes of some these proposed 
regulations, they refer to studies that are 10 to 15 years old, 
usually very small studies, usually studies that are 
independent with no real peer-reviewed verification, and then 
we get these, you know, these huge cost-benefit comparison, and 
in true science, you actually document what is going on. That 
does not appear to be the case at your EPA. And if they exist, 
then send them to us.
    Ms. Jackson. I disagree, but I will check again to see what 
else may be outstanding from your requests, respectfully.
    [The information appears at the conclusion of the hearing.]
    Mr. Barton. All right. Let me make a comment on what 
Chairman Waxman said in his opening statement, that we have 
voted 125 times to weaken environmental regulation in this 
Congress. That is not true. There is a difference between 
voting to actually change or reduce an existing standard and 
voting to delay or slow down our at least review a proposed 
standard. This Congress has asked and voted to delay, review, 
go back and check on regulations but I am not aware that we 
have voted to actually change or weaken any standard that is 
already in effect, and I think that is a distinction that is 
worth nothing.
    The regional administrator in Texas, Dr. Armand Davis, in 
an op-ed in the Dallas Morning News earlier this week expressed 
surprise that Texas industry in attempting to comply with this 
cross-state air pollution regulation actually beginning to shut 
down power plants and coalmines. He said in his op-ed that the 
EPA had reached out numerous times and tried to consult with 
and interact with the affected industries. Could you provide 
logs of those meetings, emails and telephone conversations to 
actually document the regional administrator's assertation that 
he had been trying to work with the industries in Texas? 
Because when I checked with the industry, they say that they 
have had almost no interaction and were absolutely blindsided 
by the inclusion of Texas in the Cross-State Air Pollution Rule 
at the very last moment with no ability to impact the 
regulation.
    Ms. Jackson. Sir, I am happy to provide it. I would also 
just point you to the record of the Cross-State Air Pollution 
Rule where EPA specifically took comment and received comment 
and received comment from Texas industries and Texas regulators 
about Texas's inclusion in both the----
    Mr. Barton. After the fact. After the fact.
    Ms. Jackson. No, no, sir, during the public comment period.
    Mr. Barton. You couldn't have, because Texas wasn't 
included in the rule.
    Ms. Jackson. Sir, Texas----
    Mr. Barton. There is a one-paragraph mention of Texas 
possibly including at some future point. They were put into the 
rule at the last moment.
    Ms. Jackson. Sir, Texas has been complying with the CAIR 
rule that the Bush administration put in place. The cross-state 
rule is a replacement for that rule. We specifically took 
comment----
    Mr. Barton. I am very aware of that.
    Ms. Jackson [continuing]. And put Texas on notice that 
besides NOx, ozone, smog requirements, we took comment on what 
would happen if they weren't in and what would happen if they 
were. So we have information submitted by Texas regulators and 
Texas companies----
    Mr. Barton. Well, if you will just comply with my----
    Mr. Waxman. Regular order, Mr. Chairman.
    Mr. Stearns. The gentleman's time has expired and the 
gentleman from California, the ranking member, Mr. Waxman, for 
5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    When you propose a rule, you have to establish a record of 
the scientific basis for your findings. Isn't that correct?
    Ms. Jackson. That is correct, sir.
    Mr. Waxman. And that relies on work that has been done by 
scientists, often, maybe always, peer reviewed. Is that 
correct?
    Ms. Jackson. That is right. That work goes through peer 
review before we put it in the record for our rules.
    Mr. Waxman. And so if Mr. Barton wants to get the 
scientific backing for your rules, he can just simply look at 
the record?
    Ms. Jackson. Well, yes, although of course if there is 
additional information we owe him, I will look to ensure he 
gets it.
    Mr. Waxman. Well, I have talked to Mr. Barton, and as I 
understand it, there is a lot of scientific research that has 
been peer reviewed on the question of the impact of carbon 
emissions, global warming, climate change, and yet Mr. Barton 
doesn't believe in the science, nor does anybody else on the 
other side of the aisle. They have all voted that they reject 
the idea that science has come up with this conclusion and they 
reject the science as well.
    We hear about job-killing regulations, and I haven't seen 
anybody substantiate the job-killing part of the regulations, 
but we know that a lot of this pollution kills people, and we 
have that well documented. Isn't that an accurate statement?
    Ms. Jackson. That is accurate, sir.
    Mr. Waxman. I would like to ask you about the TRAIN Act, 
which will soon be debated on the House Floor, as a matter of 
fact, today.
    Mr. Barton. Would the gentleman yield?
    Mr. Waxman. No, I won't. I only have a limited time.
    Mr. Barton. I would like to see----
    Mr. Waxman. The bill reported from the committee----
    Mr. Barton [continuing]. One document----
    Mr. Stearns. Regular order.
    Mr. Waxman. Mr. Chairman, regular order.
    Mr. Stearns. The gentleman is recognized.
    Mr. Waxman. I want to ask you about the amendment that is 
going to be offered by Mr. Whitfield. The reported from the 
committee would indefinitely delay critical public health 
protections to reduce soot, smog, mercury and other toxic air 
pollution from power plants but the Whitfield Floor amendment 
goes much further. It would nullify EPA's final Cross-State Air 
Pollution Rule and proposed Mercury Air Toxics Rule and it 
requires EPA to start from scratch on both rules, which have 
already been years in the making.
    Administrator Jackson, how long have we been waiting for 
old, uncontrolled power plants to finally clean up and how do 
these power plants compare with other sources of pollution?
    Ms. Jackson. The 1990 Amendments to the Clean Air Act first 
called for power plant--toxics from power plants to be 
addressed. The Good Neighbor provisions in the rule I believe 
were added then as well, which is the basis for the Cross-State 
Air Pollution Rule. Power plants are the largest emitters in 
our country of soot and smog and mercury, and for that reason, 
the prior administration, the Bush administration, tried to 
address through the Clean Air Interstate Rule and the Clean Air 
Mercury Rule, rules that were later overturned in court because 
they did not comply with the law and did not do an adequate 
job.
    Mr. Waxman. The Whitfield amendment would ensure that power 
plants would not have to control toxic air pollution for at 
least 7 years or reduce sulfur dioxide and nitrogen oxide for 
at least 8 years, and those are minimum delays because the 
amendment would eliminate all Clean Air Act deadlines for the 
rules. In addition to these delays, the Whitfield amendment 
changes the underlying Clean Air Act authorities for the rules. 
I am concerned that these changes would block EPA from ever 
reissuing the rules for air toxics. The Whitfield amendment 
replaces the Clean Air Act's proven standard-setting criteria 
with an entirely new approach for power plants that appears to 
be completely unworkable. It requires EPA to set standards 
based on the 12 percent of power plants that are best 
performing in the aggregate for all toxic pollutants. 
Administrator Jackson, this would require you to decide whether 
a plant that emits more neurotoxins but less carcinogens is 
better or worse performing than a plant that emits more 
carcinogens but less neurotoxins. Is there any scientific basis 
for you to make such a decision and how is such a decision 
likely to fare in the courts?
    Ms. Jackson. Well, sir, I think it would weaken and 
possibly destroy our ability to ever address those toxins, 
toxic pollutants because that is not the way they work in our 
body. You know, those pollutants all act together and we have 
good science that documents the health effects of mercury and 
arsenic and lead and hydrochloric acid but to try to pick 
between one or the other, I fear would simply make the rules 
subject to being overturned and we would not get those 
protections.
    Mr. Waxman. This amendment would change the criteria for 
addressing pollution that is generated in one State but is 
blown by the wind and causes unhealthy air quality in a 
downwind State. States can't require polluters in upwind States 
to clean up so the Clean Air Act includes a Good Neighbor 
provision directing EPA to ensure that upwind States clean up 
pollution that causes unhealthy air beyond their State 
boundaries. The Whitfield amendment includes an amazing 
provision that prohibits the EPA from relying on modeling for 
any rule to address cross-state pollution. Administrator 
Jackson, if EPA can't rely on modeling, what effect would this 
have on the agency's ability to issue another cross-state 
pollution rule to address ozone and particulate problems in 
downwind States?
    Ms. Jackson. Sir, if we are required to only use monitoring 
data, which of course we use, but without the modeling to go 
along with it, I don't believe we will be able to issue a 
regional cross-state rule in the future ever because we simply 
have to be able to use scientific modeling to address upwind 
sources of pollution.
    Mr. Waxman. And how are these rules that the Whitfield 
amendment would strike, how are these rules--why are they so 
important to public health?
    Ms. Jackson. Well, I think looking at the mercury rule, for 
example, we talk about 6,800 to 17,000 avoided premature deaths 
a year once implemented, 120,000 avoided asthma attacks per 
year. The cross-state air pollution, $120 billion to $280 
billion in benefits, which represent 13,000 to 34.000 avoided 
premature deaths and 400,000 avoided asthma attacks every year.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Waxman. Mr. Chairman, I want to say that Mr. Barton 
characterized the report. I would like to offer my report to be 
in the record, and that is the 125 in our tally votes to weaken 
the Clean Air Act.
    Mr. Stearns. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. The gentleman from Pennsylvania is recognized, 
Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you very much, and welcome here, 
Administrator Jackson.
    On this discussion of premature deaths, et cetera, I am 
trying to get some accuracy of this from a scientific 
standpoint. Now, EPA is responsible for setting the National 
Ambient Air Quality Standard at a level to protect public 
health including sensitive subgroups with an adequate margin of 
safety. Am I correct?
    Ms. Jackson. Yes.
    Mr. Murphy. And the current annual standard for fine 
particulate matter is 15 micrograms per cubic meter?
    Ms. Jackson. Yes.
    Mr. Murphy. Recent review suggests EPA might consider 
lowering it further to a level of 11. Am I correct?
    Ms. Jackson. Sir, we have not made any regulatory 
determination. That science is ongoing.
    Mr. Murphy. Are you considering a level of 11?
    Ms. Jackson. We are required by law to review that level 
every 5 years.
    Mr. Murphy. And these standards are based on review of 
science. Am I correct in that too?
    Ms. Jackson. That is correct, sir.
    Mr. Murphy. Are external science advisors involved in that 
or is it all within the agency?
    Ms. Jackson. Yes. Congress mandated that there be an 
external advisory board, the Clean Air Science Advisory Board, 
I believe is their name.
    Mr. Murphy. Thank you. In EPA's recent regulatory impact 
analyses for Utility MACT, Boiler MACT and Cross-State Air 
Pollution Rule, most of the deaths the EPA says are caused by 
particulate matter are at air quality levels much cleaner than 
the air standards require. So I would like to show you a chart 
with some EPA estimates, a bar chart of estimate in mortality 
by air quality, if we could have that show up on the screen. We 
have marked the level of the current particulate matter 
standard, and as you see, most of the estimated mortality is 
below the protective standards, to the left of that line.
    Now, let me look at the next slide. To make this easier, 
here is another bar chart. The tall bar represents EPA's 
estimate of deaths from all causes occurring where the air is 
cleaner than the current ambient air quality standard, and the 
short bar represents EPA's estimate of the deaths from all 
causes occurring at levels less clean than the ambient air 
quality standards.
    So a couple questions on that, Ms. Jackson. EPA's own 
documents raise an interesting question. Is it true that when 
you estimate the benefit of your regulations, you are assuming 
that clean air also kills people?
    Ms. Jackson. Sir, the whole point of the National Ambient 
Air Quality Standards is to define what is clean air. People 
deserve to know what level of air will actually make them less 
sick and avoid those premature deaths.
    Mr. Murphy. And I am just trying to get to the science 
because it looks like clean air also is in the category of what 
has happened to this definition. So the EPA always in the 
particulate matter risk assessment report that ``We do not have 
information characterizing'' deaths for people whose air was 
determined to be clean by national standards. So reading EPA's 
own document, it sounds like that there is not evidence that 
clean air is associated with deaths. So could you please share 
with the committee any studies that show a causal or 
associative relationship between fine particulate matter and 
deaths at levels below what EPA calls lowest measured level? Is 
that something you could provide for us?
    Ms. Jackson. I am happy to provide whatever science we have 
that shows the correlation, which is quite clear. It is not an 
assumed correlation between soot and death. When people breathe 
in high levels of soot or even moderate levels, that is why we 
are looking at the National Ambient Air Quality Standard. It 
causes premature death. People die before they should.
    [The information appears at the conclusion of the hearing.]
    Mr. Murphy. Thank you. Now, in the past I believe EPA has 
said that they don't necessarily take into account the 
regulations' economic impact or job impact but you waxed 
extensively on the issue of jobs created by pollution control 
industry. You said we export and growth pollution control 
industry, welders, designers, boilermakers. I might add that my 
boilermakers would like to be putting some cleaner power plants 
here in the United States. And also it was brought up that the 
GDP has grown 200 percent since passage. Is this the cause and 
effect that by passing the Clean Air Act, we have caused a 200 
percent growth in our economy?
    Ms. Jackson. No, sir, that wasn't my point. My point was, 
in contrast to people who say that the Clean Air Act is a job 
killer, the Clean Air Act has been around for 40 years and our 
economy has been fine.
    Mr. Murphy. But is it cause and effect? Are we causing--
because here is my question. In the last 10 years, we have lost 
2.8 million jobs to China, and I think we would all agree, I 
mean, 16 of the 20 most polluted cities in the world are in 
China, and we have lost a lot of jobs to China, and I think we 
would agree, their air quality standards are not good, and my 
concern also is, a lot of our manufacturers and others who find 
it cheaper for lots of reasons, not just air quality, I would 
put that in part of the mix of the issues along with currency 
manipulation, reverse engineering, cheating, et cetera. That 
may be one of the factors involved with costs of energy and 
compliance in this country. So my concern is, instead of just 
looking at the aspect of jobs being created related to the 
pollution control industry, which I think is important, I also 
want to make sure we are evaluating jobs lost if companies are 
leaving the Nation, going there and then not only reimporting 
products but reimporting pollution. Is that something that your 
agency can give us some information on?
    Ms. Jackson. We do look at jobs impacts, especially for the 
rules that have been under discussion so far this morning. Let 
me also say that there are studies by economists that show that 
the cost of environmental regulation, the kinds of things we 
are talking about, are not really determinative of a company's 
decision. Labor costs, currency costs, some of the things you 
mentioned, are much more important. These are very, very 
small----
    Mr. Murphy. I just want to make sure we are also looking at 
the--I mean, it was somewhere in the last century, someone 
referred to Pittsburgh as Hell with the lid off because of 
levels of pollution, and pretty nasty pollution. It is now 
quite a remarkably clean city. Unfortunately, that also means 
we don't have a steel mill in Pittsburgh at all anymore too. 
But if you could provide that information?
    One other thing in my remaining time. Last March when you 
were here, I asked you on a different topic related to our 
natural gas industry in Pennsylvania if you could provide us 
some information, recommendations and evaluation if you think 
Pennsylvania's laws regarding natural gas are not adequate or 
if the enforcement is not adequate. I am still waiting for that 
document. If you would be so kind as to give me information, I 
would like to advance it to Pennsylvania with some 
recommendations, or I would be glad to talk to you about that 
further later on.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. The gentleman's time is expired.
    The gentlelady, Ms. Schakowsky, is recognized for 5 
minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I would just like to suggest that the gentleman from 
Pennsylvania I think made a very good argument that when we 
negotiate trade agreements, that environmental concerns ought 
to be part of that, that we want to make sure that not only are 
we looking at the benefits or detriment to commerce but that 
the world environment is also in those trade agreements.
    I wanted to get back to the mercury and air toxic rules 
that actually are being considered for overturning essentially 
or at least diminishing on the floor today, and there were 
actually, my understanding is, 800,000 comments in favor of 
those rules that were submitted and wondered if you could 
respond to the reaction to the rules that were offered.
    Ms. Jackson. Yes, I can't confirm the exact number for you, 
ma'am, but, you know, the idea of cutting mercury pollution is 
very popular with the American people, and most Americans are 
shocked when they find that power plants are allowed to emit 
unlimited amounts of mercury and other toxics like arsenic and 
lead into their communities. They want the power, of course, 
but they have even said that they understand that we need to 
invest to ensure we have clean power in our communities because 
they don't want their children exposed to toxic mercury, they 
don't want those impacts on their neurological development.
    Ms. Schakowsky. And that is what I wanted to ask you about. 
If you could describe for us what are the public health 
consequences of what we are seeing today, the Republican 
efforts to kill this rule?
    Ms. Jackson. Without a doubt, if this rule is delayed or, 
God forbid, killed in any way, there will be more premature 
deaths, more hospital admissions, more people getting sick 
because of increased levels of everything from mercury to soot, 
as we heard earlier, to arsenic, to lead, to hydrochloric acid 
to hydrofluoric acid. In the case of the cross-state air 
pollution, the entire third of the country, which is quite 
populated--I think it is a third or more of our population will 
be subject to air pollution that they can do nothing about 
because EPA's hands are tied and cannot stop upwind sources 
from affecting people, especially our children and our elderly, 
who are more susceptible to those premature deaths and those 
asthma and bronchitis attacks.
    Ms. Schakowsky. We will also see adverse effects to 
wildlife as well, right? So there is----
    Ms. Jackson. Yes. I don't mean to minimize it, but the 
environment from the loads of those pollutants is harmed. Of 
course, the example most Americans know is acid rain, the idea 
that the SOx pollution, the SO<INF>2</INF> goes into our 
atmosphere, comes down in the form of rain that is acidic and 
it changes the chemistry of our lakes and harms our forests and 
our plants and wildlife.
    Ms. Schakowsky. I also wanted to reemphasize something I 
heard you say earlier, that there was actually a Congressional 
mandate in 1990 to do this.
    Ms. Jackson. That is right.
    Ms. Schakowsky. And so we have failed for 21 years to 
actually live up to that mandate?
    Ms. Jackson. We have not until this point been able to make 
rules that have survived court challenge, and every one of 
those years of delay is more mercury. Mercury accumulates in 
the environment, so once it is there, it is deposited and 
stays. The way you are exposed to mercury is, you eat fish, and 
the way it gets there is that it comes out of the air, it 
deposits into our lakes and streams.
    Ms. Schakowsky. I wanted to also ask you about the Cross-
State Air Pollution Rule. Why did the EPA find it necessary to 
act to ameliorate cross-state air pollution? What would be the 
impact of the Republican efforts to repeal this rule?
    Ms. Jackson. Well, as I mentioned, first we were compelled 
to do so by the courts. The courts overturned the Clean Air 
Interstate Rule, which was promulgated in the last 
administration, in the Bush administration, and in remanding it 
gave it back to EPA and said I will let this rule stand because 
I don't want to lose the health benefits of this rule such that 
they are and the market because it is a marked-based program 
while EPA fixes it. The Cross-State Air Pollution Rule is the 
replacement for that rule, and the reason it is important is 
because of the 13,000 to 34,000 premature deaths avoided and 
the 400,000 avoided asthma attacks. Those are just two of the 
significant and severe public health impacts that will be lost 
if we lose or delay those rules.
    Ms. Schakowsky. I thank you, and I thank you for the work 
that you are doing.
    Mr. Stearns. I thank the gentlelady, and the gentlelady 
from Tennessee, Ms. Blackburn, is recognized for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman, and Madam 
Administrator, thank you for being with us this morning.
    There has been some discussion about the generalities, and 
I want to talk with you about the specifics. I think we have 
had some discussion of where does the rubber meet the road and 
how do these rules and regulations affect companies and affect 
employees, and I have got an example. This is the labeling 
requirements for EPA container rules that went into effect on 
August 27, 2011. It is, I think, a great example of the 
negative impact that the regulations are having on our economy 
and specifically Buckman Labs, which is an international 
chemical company located in Tennessee. To be compliant with 
these new labeling regulations from the EPA container rule, 
Buckman Labs had to change all of their targeted micro--their 
labels and send them to the EPA for approval. Not surprisingly, 
EPA did not send some of the new labels back to Buckman until 
just one week before the new regulation went into effect and 
then Buckman Labs had to rush the EPA-approved labels to their 
clients for approval as well as 50 States where the product is 
sold just so that they could continue to maintain existing 
business. This was not for new business, this was for existing 
business. And to put this into perspective, we aren't talking 
about just a small handful of labels, we are talking about 
4,000 labels that had to be reviewed and had to be changed to 
meet compliance, requiring the hiring of temporary employees 
whose sole job is to work on compliance for this one rule.
    So did this new labeling rule actually change the contents 
of the product?
    Ms. Jackson. I would have to look into the specifics, but I 
assume it is a pesticide labeling rule, so I would look but I 
would suppose not. Perhaps you know.
    Mrs. Blackburn. You are correct. It did not. It didn't. Was 
there any type of economic impact study conducted before this 
new rule went into effect and how many jobs it was protected to 
create or projected to create?
    Ms. Jackson. I can get you specifics on the rule. I don't 
have them in front of me. It sounds like some people got hired, 
though, which is a good thing.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Well, I think that what we are seeing is 
that the cost of compliance goes up, which means that these 
companies are not hiring new workers. The cost of 4,000 labels, 
the slowing of the process of business--Buckman Labs and the 
microbicides issue and the re-labeling issue is a perfect 
example of how this slows the wheels of commerce and how it is 
added cost and an added expense for these companies, who are 
trying to create jobs, and, you know, this is money that could 
have been spent for R&D. It is money that could have been spent 
for additional employees in this process, but yet they had to 
go through this compliance.
    Now, yesterday they received notice that five more chemical 
product labels must be altered to meet the EPA label language 
changes that will require them that they are going to have to 
spend more time and more money to go through the process again. 
Can you see how the uncertainty or do you have an understanding 
of how the uncertainty that your agency is causing is affecting 
the businesses that are in my State?
    Ms. Jackson. Certainly, I would not argue that regulations 
and standard setting for safety and health don't have impacts 
on business, but we are happy to look at the specific issue, 
but remember that the pesticide laws and regulations are for 
the safety of the users of those pesticides so whatever is 
being----
    Mrs. Blackburn. Ms. Jackson, we are all for clean air, 
clean water and a safe environment. There is no argument about 
that. What we are looking at is the cost-benefit analysis of 
this. We are looking at the added burden, which indicates to 
Buckman Labs it didn't change what the composition is. It 
didn't change any of the content. It was an added regulation. 
This is specifically the point.
    You know, you can't argue about the fact that we are all 
for clean air, clean water and a clean environment. What we are 
saying is the manner in which all of these new regulations, you 
have put over nearly 1,000 new regulations since you all went 
in at the EPA. The cost to our small businesses now, Chamber of 
Commerce says, is about $10,000 per employee. The cost to 
families who are losing their jobs--we started our job creator 
listening sessions the first of the year and working with our 
small businesses and our employers in our district, the 
overreach of the EPA comes up regularly, and it is of concern 
to us. I yield back.
    Mr. Stearns. Dr. Christensen is recognized for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman, and welcome, 
Administrator Jackson.
    Let me just say before I ask my question that as a 
representative of a district with one of the highest 
concentrations of greenhouse gases, I really thank EPA for its 
continued support and help to people of the Virgin Islands, and 
also as a member of a racial minority whose communities are 
often where some of the most polluting industries are placed, 
we thank you for your commitment to environmental justice. And 
I have had the opportunity to see you work and see how you 
always work toward solutions to protect health and safety while 
still ensuring and even stimulating economic growth in 
communities across the country, and the Congressional Black 
Caucus looks forward to recognizing your work this weekend.
    Ms. Jackson. It is quite an honor.
    Mrs. Christensen. So despite, you know, the agency's 
tremendous record when it comes to producing sensible 
regulations that protect the environment while stimulating 
innovation that drives economic growth, that is not what we are 
hearing from the other side of the aisle. Republicans on the 
committee and in the House appear to be living in an alternate 
reality when it comes to environmental regulation. For example, 
in a markup of legislation last week that would stymie your 
agency's efforts to protect the air we breathe and bring 
regulations implementing Clean Air Act into compliance with the 
finally after all this time, Representative Burgess suggested 
that EPA'S Boiler MACT Rule, and I am quoting here ``would not 
provide one scintilla of improvement in the air we breathe.''
    Ms. Jackson, your agency's rulemaking process for Boiler 
MACT Rule was extensive and issued a 232-page impact analysis. 
Is Mr. Burgess correct that the Boiler MACT Rule you 
promulgated would not improve air quality one scintilla?
    Ms. Jackson. No, that is not correct.
    Mrs. Christensen. OK. Would you care to elaborate?
    Ms. Jackson. Sure. EPA estimates show that for every $5 
spent on reducing pollution on pollution control, there are $12 
worth of public health benefits. That is in reduced mercury, 
soot and other toxic pollutants.
    Mrs. Christensen. And, you know, he is not alone in his 
refusal to accept scientific facts supporting EPA regulatory 
action. At a hearing in this committee earlier this year, 
former Chairman Barton spoke strongly against Clean Air Act 
regulations that would address dangerous emissions from power 
plants, and in opposing these regulations he suggested that 
mercury emissions, which you have heard a lot about this 
morning, cause no threat to human health. You have spoken 
generally about the mercury, the impact of mercury and the fact 
that it is cumulative in the environment. Would you say 
something about the impact, especially on the health of 
children?
    Ms. Jackson. Certainly. Mercury, as I noted, is a 
neurotoxin. It affects developing brain cells and it can affect 
those cells whether a child has been born or is still in the 
womb, and lowered IQ points are generally the way that mercury 
impacts are measured. Recently, EPA Science Advisory Board 
peer-reviewed data to show that those impacts are real.
    Mrs. Christensen. Thank you, Administrator Jackson. I 
believe it is our fundamental duty to protect our children 
against these dangers, and the only way to argue otherwise is 
really to ignore decades of science on mercury emissions.
    Unfortunately, denying basic scientific facts seems to have 
become a requirement for the other side of the aisle serving on 
the committee. I don't have to remind you that in March of this 
year, every single Republican member of this committee voted to 
deny the very existence of global warming. So Administrator 
Jackson, is there any legitimate scientific debate about the 
existence of global warming?
    Ms. Jackson. Climate change, global warming has been 
reviewed by numerous scientific panels and the results remain 
the same, which is that the climate is changing and that human 
activities and particularly emissions of global-warming gases 
or climate-forcing gases are a primary cause.
    Mrs. Christensen. And as you stated, you know, according to 
a study conducted by the National Academy of Sciences, 97 
percent of scientists believe not simply that climate change 
exists but that humans are causing it. Notwithstanding that 
overwhelming scientific consensus, my colleagues on the other 
side are throwing in their lot with a handful of radical 
outliers in order to block meaningful governmental action to 
protect our children from rising temperatures, rising tides and 
the devastating consequences. So denying the problem exists is 
not a way to solve it.
    Let me ask one more question. Would reducing or terminating 
the ``lowest priority programs'' in accordance with the 
Accountable Government Initiative result in cost savings 
significant enough to justify the termination of those 
programs?
    Ms. Jackson. I would have to ask you to be a little bit 
more specific. We are certainly committed to making sure that 
we are as efficient as possible with our budget, and our budget 
is such that we can't fund every single program that we are 
actually required by law to implement, so we are making those 
kinds of hard choices right now.
    Mrs. Christensen. Thank you, and thank you for your 
testimony and thank you for being here.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from Texas, Dr. Burgess, is recognized for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    So much has been said on the other side that I need to 
refute and yet there are some things that I need to get out 
here. First off, it would be of great help to me if you would 
provide us the actuarial data that you are using to support the 
statement that 34,000 lives would be lost if your regulations 
do not go forward and then I would further ask the question, I 
am sure you made the President aware of this, does the 
President not care about the health of Americans by delaying 
the Ozone Rule?
    Ms. Jackson. Sir, the President can speak for himself, but 
I think his statement makes clear why he made the decision he 
made.
    Mr. Burgess. Well, you know, that is part of the point. Of 
course, there was a recent Nobel scientist who resigned from 
America's membership in the American Physical Society because 
of the position that that society took on global warming, and I 
think paraphrasing his statement, we can sit around for hours 
and argue about the constant mass of a proton but we are not 
able to discuss whether or not the validity of the science on 
climate change is valid or not. And, you know, people of good 
will and good intention can disagree about things. Chairman 
Waxman--ranking member--said that we don't believe in the 
science. Well, yes, that is right. I mean, I believe in God. 
The science actually should be proven, and if it is true 
science, it should be provable and that is what the argument is 
about.
    Now, let me ask you this because it is important on this 
Cross-State Air Pollution Rule because it does affect Texas in 
a big way. We were faced with the possibility of rolling 
blackouts this last August because of the electricity usage 
during the month of August and now we are told that with the 
introduction of the Cross-State Air Pollution Rule in the time 
frame as provided by the rulemaking at the EPA that eight to 18 
power plants may be shuttered on January 1st, and that will put 
obviously a significant restriction on the ability to deliver 
electricity in the State of Texas, and I would argue that that 
is going to have a significant impact on public health because 
as we all know, people can die in the cold but they really can 
die in large numbers in un-air-conditioned homes during the hot 
summer months.
    Did you coordinate, the EPA, did you coordinate with FERC 
as to the implementation of this rule as the discussions were 
going forward?
    Ms. Jackson. Sir, in looking at our--EPA did a reliability 
analysis and asked FERC and the Department of Energy to review 
that.
    Mr. Burgess. How did you coordinate the information that 
was provided?
    Ms. Jackson. As EPA did its analysis, we asked for review 
and comment on the analysis that we did.
    Mr. Burgess. And did we just ignore FERC's recommendations? 
Because they don't seem to be completely coincident with the 
decisions that you made.
    Ms. Jackson. No, not at all, sir. In fact, in my own 
personal conversations with Chairman Wellinghoff and others at 
DOE, what we have assured them is that we would work with 
States and others to ensure the Clean Air Act's perfect record 
of never having caused a reliability incident in its 40-year 
history.
    Mr. Burgess. Let me ask you this. Will you provide for this 
committee all of the relevant memos, communications, letters, 
emails that are available?
    Ms. Jackson. Certainly, sir.
    Mr. Burgess. And what time frame might we expect those?
    Ms. Jackson. As soon as we can, sir.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. I might suggest that there is a time frame 
that could be suggested to you but I will leave that up to the 
chairman.
    Now, I have here a letter to you from the Southwest Power 
Pool, a regional transmission organization, on electrical 
reliability, and the Southwestern Power Pool supports a more 
flexible approach to meeting the emission requirements under 
CSAPR and they cite several operators who are of similar 
opinion. They go on to say that EPA must be provide time to 
allow the industry to plan an approach to comply with its rules 
in a reliable and reasonable fashion. As it stands now, the 
southwest pool and its members may be placed in the untenable 
position of deciding which agency's rules to violate, EPA or 
the FERC's. Putting an industry with a critical infrastructure 
in the position of choosing which agency's rules to violate is 
bad public policy. Editorial comment: I agree. They also 
suggest that the EPA delay CSAPR's effective date by at least a 
year to allow for investigating, planning and developing 
solutions. What would be the problem with delaying for a year?
    Ms. Jackson. The rule is flexible enough. Because it is a 
market-based program that is intended to replace a rule that 
was remanded to EPA by the courts, we are under obligation to--
--
    Mr. Burgess. I am running out of time. With all due 
respect, people in the industry do not agree with you. I am not 
sure FERC agrees with you.
    Ms. Jackson. Sir, in 40 years, the Clean Air Act has never 
caused a reliability problem. I am confident that this rule can 
be implemented in a way that lets businesses make the decisions 
they need but doesn't sacrifice public health.
    Mr. Burgess. And what if you are wrong? Are you infallible?
    Ms. Jackson. Of course I am not, but the 40-year history 
shouldn't be ignored, sir, just because of doomsday scenarios 
by those who want to stop the public health protections in this 
rule.
    Mr. Burgess. Well, and I disagree that they want to stop 
the public health protections, and that is the overreach of 
which the agency is guilty, but will you provide us the 
response to the letter to the Southwestern Power Pool that they 
have posed to you?
    Ms. Jackson. If they were submitted during the public 
comment period, we may already have it, but I am happy to give 
you a response if it exists.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. The gentleman's time has expired.
    The gentleman from Michigan, the chairman emeritus of the 
full committee, Mr. Dingell, is recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy.
    Ms. Jackson, welcome. I want to thank you for your visit to 
southeast Michigan last month and your tour of the Detroit 
River International Refuge, of which you know I am very 
interested. I have a number of questions to which I would hope 
you would answer yes or no.
    One, does EPA take public comments into consideration 
during its rulemaking?
    Ms. Jackson. Yes.
    Mr. Dingell. Does EPA allow industry representatives to 
provide comments during the rulemaking process?
    Ms. Jackson. Yes, sir.
    Mr. Dingell. Does EPA take into account during the 
rulemaking process a cost analysis of the proposed rule's 
effect on industry and the costs of that?
    Ms. Jackson. Yes, sir.
    Mr. Dingell. Now, as I remember the writing of the 
legislation, the EPA is required to in writing these rules to 
come first to its decisions on the basis of health, and then to 
come to further decisions on how the rule will be implemented 
on the basis of other things as well, in other words, cost and 
impact on industry and things of that kind. Is that right?
    Ms. Jackson. That is generally correct, sir, yes.
    Mr. Dingell. And so if I am correct, then the TRAIN Act 
would change the sequence of those things. The first decision 
would be cost of the rule and the second decision would then be 
how the health of people is going to be affected by the 
different circumstances in which the rule is directed. Is that 
right?
    Ms. Jackson. I believe that is right, or it may be the 
Latta amendment that would amend the TRAIN Act to do that.
    Mr. Dingell. Now, would you briefly state what effect you 
think there would be if the cost basis analysis is done before 
the scientific health benefit analysis?
    Ms. Jackson. I think it would require the American people 
to be kept in the dark about what is happening to their health 
and about what is clean air. It is analogous to a doctor not 
giving a diagnosis to a patient because the patient might not 
be able to afford the treatment. The American people have the 
right to know whether the air they breathe is healthy or 
unhealthy.
    Mr. Dingell. Well, now, how are you going to assess the 
costs if you don't know what the problem you are addressing 
might be? I am trying to understand. We are going to have a big 
proceeding to define cost and then after we have defined the 
cost we are going to decide about the health and what we are 
going to do. I find this rather curious. How are we going to be 
able to assess the cost if we don't know what is going to be 
required to be done?
    Ms. Jackson. I see. I am not sure, sir. I haven't--I don't 
know what the thinking is.
    Mr. Dingell. Just for my own curiosity, there have been a 
lot of major changes proposed to the Clean Air Act, and I am 
sure you will remember that over the years I have not been 
entirely happy about either the Clean Air Act or the 
administration of it by EPA. But how many times have you been 
called upon by the Congress to testify on these proposed 
changes?
    Ms. Jackson. I believe it is approaching a dozen, sir, but 
we can get you the exact number.
    Mr. Dingell. Please, if you would. Now, as I mentioned, my 
colleagues on the committee know I have had some very major 
disagreements with EPA over the rules, and there are a lot of 
serious issues that need to be addressed in the Clean Air Act 
and other policies, and from time to time I have been worried 
that the industry will bear an undue burden as a result of EPA 
rules. Those concerns still exist today in places.
    I have to say that I am disappointed, Mr. Chairman, that 
this committee has decided not to address these issues head on 
through legislation. Instead, we have been running around 
following false paper trails, taking issues out of context, 
ignoring policies already in place instead of finding 
legitimate and balanced solutions to protect the economy and 
the environment and having hearings in which we address the 
concerns of industry to find what the specific concerns are and 
what the particular actions of this committee should be to 
address those concerns and see to it that we are addressing 
with proper focus and diligence the questions of protecting the 
economy, jobs and at the same time addressing the problems in 
the environment.
    I note that my time is up and I thank you for your 
courtesy, Mr. Chairman.
    Mr. Stearns. Dr. Gingrey is recognized for 5 minutes, the 
gentleman from Georgia.
    Mr. Gingrey. Madam Administrator, thank you for appearing 
before the committee. Your response to the gentleman from 
Michigan in regard to what comes first in consideration of the 
EPA rulemaking and your response was health and protecting the 
health of the American people comes first, and I think your 
response also to what comes second was other things including 
cost. Is that correct? Was that essentially your response to 
the gentleman from Michigan's line of questioning?
    Ms. Jackson. Yes, with respect to the National Ambient Air 
Quality Standards and the Clean Air Act.
    Mr. Dingell. If the gentleman would yield, that is required 
in the statute and something that caused me a lot of trouble.
    Mr. Gingrey. Reclaiming my time, and I appreciate that, but 
the EPA--and this is the reason I bring this up--the EPA counts 
benefits from protecting people from clean air. They don't 
actually believe there is a risk at those levels but they are 
counting the benefits so we are concerned about overstating the 
benefits in regard to health and understating the risks to the 
economy. Yes or no, is it true that the Administrator of EPA, 
yourself, has the responsibility to set ambient air quality 
standards to protect the public health including sensitive 
subgroups with an adequate margin of safety?
    Ms. Jackson. Yes, sir.
    Mr. Gingrey. And again, yes or no, is it true that the 
Administrator, yourself, considers advice from EPA staff and 
also advice from the science advisors on the Clean Air Act 
Science Advisory Committee in setting those standards?
    Ms. Jackson. Yes, sir.
    Mr. Gingrey. Now, EPA staff and their particulate matter 
report say that there is no evidence of health effects at 
levels much lower than the EPA calls the ``lowest measured 
level.'' Is that your understanding?
    Ms. Jackson. Sir, that wouldn't make sense to me, that 
below the lowest measured level there be no effects or effects 
that would be hard to attribute because you couldn't measure 
the pollutant.
    Mr. Gingrey. Right. So the answer is yes, and I thank you 
for that.
    Now, according to the most recent particulate matter risk 
assessment, EPA estimates, and I quote that ``total particulate 
matter 2.5 micron related premature mortality ranges from 
63,000 and 88,000 each year above the lowest measured level.'' 
Of course, that is a large number. Would you agree, 63,000 to 
88,000?
    Ms. Jackson. It is a lot of premature deaths.
    Mr. Gingrey. It represents in fact, Madam Administrator, 
between 3 and 4 percent of all deaths in the United States 
annually.
    But now I turn to the recent Transport Rule which of course 
we have concerns over and to its estimates of benefits which 
involve almost all particulate matter and note that the benefit 
ranged between 130,000 and 320,000 deaths per year. That is 
quite different from EPA's own integrated science assessment. 
So how do you explain that?
    Ms. Jackson. I am sorry.
    Mr. Gingrey. Well, let me say it again. The most recent 
Transport Rule and to its estimate of benefits, which involve 
all particulate matter, and note that the benefits range 
between 130,000 and 320,000 deaths per year. As I said, that is 
quite different from 63,000 to 88,000 from EPA's own integrated 
science assessment. How do you explain that delta?
    Ms. Jackson. The number I have, sir, is 13,000 to 34,000 
avoided premature deaths under the Cross-State Air Pollution 
Rule. Perhaps our numbers should be reconciled, but that is 
what I have and I believe that is directly from the rule and 
their regulatory impact analysis.
    Mr. Gingrey. Well, I would like, Madam Administrator, for 
you to clarify that for me and I would appreciate that very 
much, because the question becomes--and as I said at the 
outset--is the EPA modifying the numbers to exaggerate the 
benefits? Is the EPA claiming benefits below the level where 
the data support such claims? How can EPA promulgate rules and 
put out numbers that represent two- and threefold increases 
over the agency's own scientific assessment? Will you agree, 
Madam Administrator, that this does raise legitimate questions 
about overestimating the health benefits?
    Ms. Jackson. No, respectfully, because I don't believe I 
agree with your numbers, sir, so I can't agree with your 
premise.
    Mr. Gingrey. Well----
    Ms. Jackson. You know, it was briefed not long ago by 
scientists who said simply--these are scientists who study fine 
particle pollution--that if you could reduce the levels down to 
levels that would be considered doable technologically, you 
could have an impact on public health----
    Mr. Gingrey. Well, let me interrupt you just for a second, 
Madam Administrator, with all due respect, and I do respect 
you--I have only got--in fact, in fact, I am a little bit over 
time, but it is really, it is kind of like this business of the 
stimulus bill saving jobs. It didn't grow jobs but of saving 
jobs, and you put out numbers in regard to saving lives. That 
is much more important, and that has to be accurate.
    So thank you for getting that information to me in a timely 
manner, and I know I have gone over so I yield back.
    Mr. Stearns. The gentleman's time is expired.
    I recognize the gentlelady from Florida, Ms. Castor. I 
welcome her to the hearing.
    Ms. Castor. Thank you, Mr. Chairman, and thank you, Madam 
Administrator.
    You know, coming from Florida, we really appreciate our 
clean water and clean air because jobs and the economy are 
directly tied to having clean air and clean water, and I just 
have to--you know, this past week on Monday was the 1-year 
anniversary of finally sealing, closing off the BP Deepwater 
Horizon well, and there is no better example to explain why 
rational regulations need to be in place to protect not just 
the environment but when the environment is tied to the economy 
and jobs, and I know of the last 30 years even, we have seen a 
very predictable pattern of when the EPA goes to carry out the 
direction of the Congress under the law and the will of the 
American people, there is this typical tug of war that then 
ensues. You will propose a regulation and then certain 
industries will weigh in, local citizens, maybe the heart and 
lung associations, and I think this is very healthy. I think a 
robust exchange of ideas and looking at all of these 
regulations is essential to getting to the right result. It can 
be messy and it can be very contentious sometimes and sometimes 
folks here in Washington have very high-paid lobbyists that can 
weigh in, and it is important to have a balance when people at 
home that oftentimes don't have the same voice. But I think if 
EPA sticks to the science and if you fairly consider all 
industry points of view and you consider rational alternatives, 
is there a less costly alternative, I think if we follow the 
science, we will get to the right point. And I have a couple of 
examples. When EPA announced plans to control benzene emissions 
from chemical production plants, you know, remember that 
industry claimed pollution controls would cost over $350,000 
per plant, but instead, technological innovation led to 
replacement of benzene with other chemicals and the compliance 
costs turned out to be zero.
    Administrator Jackson, is this the sort of innovation--is 
this sort of innovation unusual in the face of new 
environmental regulation?
    Ms. Jackson. No, and indeed, to the contrary, it is the 
pattern. For example, the industry overstated the per-ton cost 
of the acid-rain trading program by a factor of four, and what 
happens is that once industry puts its mind to complying 
instead of fighting, they learn to do it in a way that is more 
cost-effective than the current technology and we get both 
cleaner air and water and jobs as well.
    Ms. Castor. Then there is a great example just in the home 
district from decades ago. We had a coal-fired power plant by 
the local electric company. They were in litigation, and you 
know, rather than proceed down litigation, the business took a 
hard look at the new technologies available to clean the air 
and to settle that they invested in the new technology on 
scrubbers, and this has been the best business decision for 
them. Not only has it earned them great PR but has cleaned the 
air. It is right on Tampa Bay. The health of Tampa Bay has 
improved. We don't have as much atmospheric deposition coming 
on to the water, and I think oftentimes the science and 
technology proves out to be the best business decision.
    Another example, when EPA announced limits on 
chlorofluorocarbons in vehicle air conditioners, the auto 
industry insisted they would add up to $1,200 to the price of 
every car, but the real cost turned out to be as low as $40. So 
in that case, did the benefits to eliminating 
chlorofluorocarbons outweigh this $40 cost, in your opinion?
    Ms. Jackson. Yes, I am sure they did, although I don't know 
the exact ratio, but because the cost was so much less--they 
already had weighed it when we posed the rule but the happy 
coincident of innovation is that it is much cheaper than we 
expected.
    Ms. Castor. Why do you think this is the case? Why do 
affected industries and their high-paid lobbyists up here, why 
do they so often overestimate the costs?
    Ms. Jackson. You know, there has become this dance that is 
done inside Washington where we propose public health 
protections in accordance with the law and then the costs are 
overstated, and even though the history shows that that is not 
the impact, it seems to me to be devoid of concern for the real 
people who would be most affected, and that is the American 
people who want clean air and clean water, and of course they 
want jobs as well, and I believe we can have all three.
    Ms. Castor. I agree. I don't think they are mutually 
exclusive, and a lot of these examples prove that out.
    Thank you very much. I yield back.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from California, Mr. Bilbray, is recognized 
for 5 minutes.
    Mr. Bilbray. Administrator Jackson, has there been an air 
district anywhere in the country, not in the world, that has 
reduced its total emissions more than the South Coast Air Basin 
in Los Angeles?
    Ms. Jackson. I can double-check that but they have made 
significant reductions, sir. They still have significant 
challenges but they have made reductions.
    Mr. Bilbray. Right. The question is, is there another 
nonattainment area anywhere in the country that has more 
regulatory control over emissions than Los Angeles, the South 
Coast Air Basin?
    Ms. Jackson. California, because of their specific 
challenges, I think has older and probably more well-
established air pollution regulations in general.
    Mr. Bilbray. And are you aware also too that California and 
the Air Resources Board and the air districts have been the 
leader not just nationally but worldwide in air pollution 
reduction and technology?
    Ms. Jackson. And technology and moving forward on trying to 
address public health issues.
    Mr. Bilbray. And you are aware that we have one of the 
highest, second only to Nevada, unemployment right now, 12-
point plus?
    Ms. Jackson. I am sorry, sir.
    Mr. Bilbray. OK. Look, both sides can talk about denial of 
impacts, health-wise, economic. Let us be upfront. Anybody that 
straight-faced says we can do these regulations and they will 
help the environment and drive the economy is still playing in 
our 1970 illusion that there isn't an impact on both sides, and 
I don't think either side should be in denial that there is a 
cost to the economy and a benefit to the environment, and if 
you retreat on some of these environmental issues, there is 
going to be an impact on the environment and health and a 
benefit to the economy. It goes back and forth. The concept 
that we can pull this off, we have been playing this game in 
California long enough. We have tried to do--we have done 
extraordinary things in California to try to make both work 
out. There is a cost, and there is a cost both ways, and I 
think that seriously we need to address that.
    Now, let me ask you--and that is why the dialog here gets 
polarized. I want to bring this back to, there is cost and 
benefit. Don't deny the cost; don't deny the benefit. Now, my 
question is, in the 1970s, isn't it true that through 
environmental regs and fuel efficiency regs, the federal 
government drove the private sector towards diesel operation 
for about 5 to 6 years? They converted their fleet largely over 
to diesel?
    Ms. Jackson. I can't confirm that, sir.
    Mr. Bilbray. OK. Well, I will confirm it for you because I 
think those of us that are old enough to remember that will 
remember that hideous experiment. That was an environmental 
regulation that drove the private sector to diesel, which you 
and I know is a very, very toxic emission, a very big health 
issue, and it was a major economic and environmental mistake 
that we made, and there are impacts of that.
    I would like to shift over from the other side as somebody 
who has been on the rulemaking, actually been in the 
regulations. What is the responsibility or what is the 
participation of local and State and county government 
operations in the implementation of these rules, and I will 
point that out. You are the Environmental Protection Agency. 
You are not the EDA. You are not the Economic Destruction 
Agency. What is the local and State responsibility in 
addressing air pollution and toxic emissions and what is their 
major goal in participation in this project? And please make it 
short.
    Ms. Jackson. OK. At a minimum, State governments are 
primarily responsible for implementation of most aspects of the 
federal Clean Air Act. Some States have their own laws, and in 
the case of California, local and county governments do----
    Mr. Bilbray. How much reduction have we had in government 
operations and procedures in emissions in a nonattainment area 
like the L.A. Air Basin in comparison to the private sector 
reduction? Wouldn't you agree that probably overwhelmingly in 
the 90 percent that the private sector has reduced their 
emissions proportionally that the reduction has been in the 
private sector and the public sector has been less than very 
aggressive at reducing our emissions and our operations to 
reduce our footprint?
    Ms. Jackson. Sir, I am not sure I understand the question, 
but the private sector has not done it voluntarily.
    Mr. Bilbray. Let me give you this. The EPA had a scientist 
coming out of Kansas that could tell you that you could reduce 
the emissions from autos by 20 percent with a single 
regulation. Don't you think the EPA would be very interested in 
looking at implementing those rules?
    Ms. Jackson. Of course. We are always looking for ways----
    Mr. Bilbray. What are you doing about indirect--the mobile 
sources caused by inappropriate traffic control by city, county 
and local and State government?
    Ms. Jackson. Sir, we are implementing the Clean Air Act and 
we allow States to come up with implementation plans to 
determine how best to reduce most forms of air pollution. The 
mercury and air toxic standards are different because they are 
under a different section of the Clean Air Act.
    Mr. Bilbray. I move right back over. In other words, local 
governments, State government get to--our job is to make the 
private sector clean up their act where you can get identified 
single mobile source that government controls that we have done 
nothing as a comprehensive approach to reduce it because we 
focus on cracking down on the private sector, who are the job 
generators, while we are given a free ride.
    And Mr. Chairman, I point this out because that 20 percent 
that we could reduce in government is 20 percent that the 
private sector wouldn't have to do while they are laying off 
employees, and that is the kind of responsible environmental 
strategy I would like to see both sides of the aisle finally be 
brave enough to approach.
    Mr. Stearns. The gentleman's time is expired.
    The gentleman from Massachusetts is recognized for 5 
minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    This week, the Republicans have stepped up their assault on 
clean air and clean energy. Both this committee and the full 
House have begun a legislative repeal-a-thon that denies the 
science, delays the regulations and deters efforts to protect 
the health and security of millions of Americans. Take today's 
Floor action. We are having 100-year floods every few years. We 
have had tornados rip through the country, killing people and 
destroying property. Hurricanes have caused floods, massive 
power outages and deaths. Texas is on fire. Forty-eight states 
have made emergency declarations so far this year. Now, we have 
set all-time records of 83 major disasters declared this year 
with 3 months of the year still left to go.
    The planet is warming and the weather is worsening. We see 
it here with our hurricanes, floods, fires and tornados. We see 
it overseas where famine in Somalia threatens civil war, and 
how does the tea party respond? ``Maybe we can find the 
money,'' they say, for disaster relief for people who are 
suffering, for people who are desperate, for people who have 
lives who have been altered permanently by these disasters, but 
we are going to make the taxpayer pay. Do the Republicans say 
we are going to pay by cutting the hundreds of billions of 
dollars we spend on our nuclear weapons program because we all 
know we don't need to build any more nuclear weapons? Oh, no. 
They wouldn't do that. Are we going to cut the tens of billions 
of dollars in subsidies we give to Big Oil and Coal as they 
report record profits? Oh, no, we can't touch those, they say. 
We can't even talk about cutting those programs. What can we 
talk about? We can talk about, they say, cutting the clean car 
factory funds. We can talk about cutting the incentives to make 
super-efficient cars that don't need the oil sold by potentates 
in Saudi Arabia and CEOs in Texas. We can talk about cutting 
the program that could remove the need for the very same oil 
that creates the greenhouse gases that are warming up the 
planet and causing the disasters that cost more and more money 
to remedy as each year goes by.
    And as if all this wasn't enough, the Republicans are also 
waging an all-out war on the Clean Air Act. This committee and 
the House has already passed legislation to prevent the EPA 
from doing anything to reduce the amount of oil used by our 
cars and trucks. And this week in this committee and on the 
floor, we are considering bills to require endless study of the 
cumulative impacts of all EPA air regulations on all 
industries, and then just for good measure, we are going to 
pass legislation that repeals the regulations that have already 
been set, extend the deadlines for implementation of the rest 
and weaken the very underpinnings of the Clean Air Act.
    The Republicans are providing the American people with a 
false choice. We do not have to choose between air quality and 
air conditioning. We do not have to choose between concrete and 
cancer. We do not have to choose between manufacturing and 
mercury poisoning or asthma or cardiac arrest. We do not have 
to choose. In their insistence that we consider the cumulative 
impacts of all these regulations, there are some other 
cumulative impacts of their actions that Republicans refuse to 
acknowledge.
    Administrator Jackson, Republicans are cutting programs to 
incentivize the development of advanced technology vehicles 
that could run without using a single drop of oil. They also 
passed legislation preventing EPA from moving forward to 
require a 54.5-miles-per-gallon fuel economy standard by 2025. 
When you look at this cumulatively as Republicans say we must, 
do you think these actions would help or hurt our efforts to 
reduce our dependence on foreign oil and back out that which we 
take from OPEC and funds those countries' governments?
    Ms. Jackson. I think efforts to make us more dependent on 
gasoline hurt our Nation's energy independence, sir.
    Mr. Markey. Cumulatively, what are the benefits of cleaning 
up particulate matter? Does that help or hurt our efforts to 
battle cancer, to battle the impact that it has upon the health 
of people in our country?
    Ms. Jackson. Particulate matter causes premature deaths. It 
doesn't make you sick. It is directly causal to dying sooner 
than you should. So the impacts of delaying efforts, cost-
effective efforts, I might add, to address particulate matter 
are more people dying sooner than they should.
    Mr. Markey. How would you compare it to the fight against 
cancer, reducing particulate matter?
    Ms. Jackson. Yes, I was briefed not long ago. If we could 
reduce particulate matter to healthy levels, it would have the 
same impact as finding a cure for cancer in our country.
    Mr. Markey. Can you say that sentence one more time?
    Ms. Jackson. Yes, sir. If we could reduce particulate 
matter to levels that are healthy, we would have an identical 
impact to finding a cure for cancer.
    Mr. Markey. That is a pretty good cumulative impact.
    Ms. Jackson. Well, and the difference is, we know how to do 
that.
    Mr. Markey. And the Republicans are also proposing to delay 
and weaken standards that would remove toxic chemicals like 
mercury, benzene, cancer-causing dioxin and lead from 
industrial polluters. Your regulations clean up cement plants. 
When you look at these health effects cumulatively as 
Republicans insist we must and the tea party insists we must, 
would we be avoiding the thousands of deaths that would 
otherwise occur----
    Mr. Stearns. The gentleman's time has expired.
    Ms. Jackson. And that is $2 trillion in health benefits a 
year beginning in 2020, sir, and that is just some of the 
rules.
    Mr. Stearns. I thank the gentleman. I am glad he finally 
got to his question.
    Mr. Markey. Well, I was asking--well, let just say this for 
the sake of the discussion. Mr. Bilbray did not ask his 
question until 1:05 after the time, and Mr. Gingrey did not ask 
his question until 26 seconds after his time.
    Mr. Stearns. I am glad you noticed.
    Mr. Markey. But if you would have notified them as well, 
then I think I probably would have understood what the rules 
were.
    Mr. Stearns. And there are no rules. You can do what you 
want on your 5 minutes.
    Mr. Markey. I appreciate it. Thank you.
    Mr. Stearns. Mr. Griffith from Virginia is recognized for 5 
minutes.
    Mr. Griffith. Thank you.
    When you say reduce particulate matter to levels that are 
healthy, what is that level?
    Ms. Jackson. I don't have it in my head right now but we 
will get it to you, sir.
    Mr. Griffith. And can you tell me when you are getting that 
information at what point in history we were at that level? 
Because isn't it not true that a lot of particulate matter 
exists from natural causes?
    Ms. Jackson. Some amount of fine particulate matter, but 
most of the natural causes of particulate matter are coarser 
and, you know, so dust, when you hear about dust storms. There 
is some particulate matter, of course, that is emitted 
naturally.
    Mr. Griffith. So if you could give me a date as to when the 
earth achieved that maximum healthy level, I would appreciate 
that, at some point back in the past. I am sure your scientists 
can help you with that.
    In regard to mercury, we have heard a lot about mercury 
today but the Department of Energy says when it goes back and 
looks at mercury, and this was just found on the Department of 
Energy's Web site, that even in 1995, coal-fired power plants 
in the United States contributed less than 1 percent of the 
world's mercury in the air, and that since that time we have 
actually dropped, and I guess my question is, because we hear 
this all the time in this committee, that we must be against 
clean air, that we must be--you know, because we don't support 
all the EPA proposals that we must be for dirty air. In fact, I 
believe Chairman Emeritus Waxman said yesterday this was Dirty 
Air Week, the Republicans had declared this Dirty Air Week in 
the legislature. And so I guess I have to ask, even though I 
know the answer in advance, you would not submit that being 
opposed to some of your regulations means that you are against 
clean air, would you?
    Ms. Jackson. It certainly depends on the regulation, sir.
    Mr. Griffith. You would not submit that the President is 
against clean air because he opposed your proposed Ozone Rule, 
would you?
    Ms. Jackson. No, sir.
    Mr. Griffith. I wouldn't think so. Or clean water. Wouldn't 
that be correct?
    Ms. Jackson. No.
    Mr. Griffith. All right. And so when people make blanket 
statements that because they oppose an EPA--some of us oppose 
an EPA regulation, that doesn't mean that we are necessarily in 
favor of dirty air, does it?
    Ms. Jackson. It depends on the regulation, sir.
    Mr. Griffith. All right. Clearly, on ozone, we wouldn't 
have been in that category.
    And in regard also, there was a comment earlier that 
somebody wanted to know, you know, we call these job-killing 
regulations, they want to know where the jobs are, and I can 
submit to you some jobs from the 9th district of Virginia that 
have been lost by virtue of some proposed regulations if they 
go into full effect, but isn't it true that your own analysis 
shows that the boiler MACT and cement MACT proposals will in 
fact cost jobs. Is that not correct? They create some clean 
energy jobs but they also have a certain----
    Ms. Jackson. That is not entirely correct, sir. The jobs 
analysis for the boiler MACT----
    Mr. Griffith. Well, either people are going to lose jobs or 
they aren't. Do they lose jobs or not?
    Ms. Jackson. Well, sir, we do an analysis. There is a 
range, and it ranges from a gain of 6,500 jobs to a loss of 
3,100. It is not a perfect science to look at this, but jobs 
analysis that we do, we try to be as precise as we can.
    Mr. Griffith. But you are aware that in regard to some of 
your rules that various power plants across the country have 
already announced shutdowns of power plants and a net loss of 
jobs? You are aware of that, are you not?
    Ms. Jackson. Many of those plants are making business 
decisions.
    Mr. Griffith. Are you aware that they are laying off 
people?
    Ms. Jackson. I am aware of the fact that plants need to 
make business decisions so that they can stop polluting the 
air.
    Mr. Griffith. Can I then assume that you are not--I mean, I 
am just asking a simple question. Either you are aware of----
    Ms. Jackson. I am aware of the announcements.
    Mr. Griffith. You are aware of the announcements. Thank 
you.
    Ms. Jackson. I don't necessarily believe their 
announcements are always fair or accurate.
    Mr. Griffith. OK. But you are aware that they have 
announced layoffs and communities are concerned about the 
layoffs of high-paying jobs in my district, rural areas where 
high-paying jobs are not common? You would agree with that?
    Ms. Jackson. I am aware of their announcements, and I know 
that some of what is in their announcements isn't accurate or 
fair.
    Mr. Griffith. Do you think that the Department of Energy is 
accurate and fair when it says that only 1 percent of the 
mercury in the world's atmosphere is coming from coal-fired 
power plants in the United States of America? Are you aware of 
that?
    Ms. Jackson. I heard you say it. I would like to see their 
Web site before I agreed to it.
    Mr. Griffith. All right. But do you all have data that 
indicates similarly that since 1995 without these regulations 
going into effect the amounts of mercury in the air in the 
United States has actually diminished, and some other 
regulations----
    Ms. Jackson. It is a good point, sir. Almost half of the 
power plants in this country currently comply with the 
regulations that we are scheduled to adopt in November, so it 
can be done. It can be done cost-effectively. It is actually a 
matter of fairness. Some plants are emitting mercury and others 
have already addressed that pollution.
    Mr. Griffith. And in fairness, some of that deals with 
municipal waste incinerators, because I have never been one of 
those who says that the EPA doesn't have a purpose or does some 
good and that that is part of the reason that mercury has 
dropped in this country, but we are already at fairly low 
levels and the balance that we have to make as policymakers, as 
your President made on the Ozone Rule, is between deciding 
whether the gain is worth the cost and when the cost is people 
not having jobs and being in poverty as we have seen that rise 
in this country, you can understand why many of us are 
concerned about the rising poverty. You can agree that that is 
a negative, would you not?
    Ms. Jackson. In your considerations, I would ask you to 
look at benefits that are between $59 billion and $140 billion 
for a rule that costs $10 billion in the year 2016. That is 
what the benefits of the Mercury and Air Toxics Rules are 
estimated to be.
    Mr. Stearns. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Scalise, is recognized 
for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. Thank you, 
Administrator Jackson.
    Ms. Jackson. What did you do to your leg?
    Mr. Scalise. I tore my ACL playing basketball last week.
    Ms. Jackson. Did you kick the TV when the Saints lost to 
the Packers?
    Mr. Scalise. The Packers game was a little rough, but we 
had redemption against the Bears and we are going to do well 
this weekend too.
    Ms. Jackson. That is right.
    Mr. Scalise. I am glad we can agree on that. We definitely 
do.
    I wanted to ask you, you know, we have been talking about 
clean air, clean water, and all of us, I think it has been laid 
out very clearly, all of us support clean air and clean water. 
I think what we are trying to get at here is where is that 
balance and has there been a crossing of that balance as it 
relates to some of the rules and regulations we have seen 
coming out of EPA. I know I am equally concerned about clean 
air and clean water. I am also concerned about jobs, and during 
the break, a lot of us went back home, got to meet with a lot 
of our small business owners, talking to people who are there 
on the front line of job creation, and there was a recurring 
theme I heard from every single small business owner I talked 
to and, you know, you ask them, what kinds of things need to 
happen, what can we do to help you create jobs, and 
surprisingly, the recurring theme was, they said the 
regulations and laws coming out of Washington and this 
administration are their biggest impediment to creating jobs, 
and so I think it is very important that we look at these 
regulations that are coming out and saying, you know, what is 
the justification. And it seems that a lot of times these 
numbers are attached and, you know, each rule and regulation is 
going to save lives and each rule and regulation is going to 
stop people from being sick, you know, and those are all lofty 
goals, but unfortunately, it seems like they are numbers that 
are being arbitrarily thrown out just to justify a radical 
regulation that really has nothing to do with improving health 
and safety and, you know, I will start with the ozone ruling. 
What were the justifications that you made when you came out 
and proposed that rule? How many lives was that going to save? 
How many sick days was that going to prevent?
    Ms. Jackson. The National Ambient Air Quality Standards are 
based on peer-reviewed data that look at the health impacts, so 
it is made based on determining what constitutes a safe level--
--
    Mr. Scalise. So for that ruling, did you have numbers 
assessed to how many, whether it was lives saved? Did you say 
how many people were not going to have to go to the emergency 
room? Did you have numbers like that for that rule?
    Ms. Jackson. As I recall, sir, but we will double-check and 
get you that data, what we look at trying to assess where, 
whether the number 75, 70, what have you, where in that 
spectrum you protect human health with an adequate margin of 
safety, so----
    Mr. Scalise. I would imagine when you came out with that 
rule and you proposed that rule, you said this is going to do 
some things to protect public health, right?
    Ms. Jackson. It is the implementation of the standards over 
time. So as we heard earlier, you pick the health-based 
standard and then over time you implement the standard to 
achieve that level.
    Mr. Scalise. And so I am using that as an example because, 
you know, for those of us that agree with it, before the 
President made his decision and came out with his Executive 
Order saying we are not going to go forward with that, there 
would have been people on the other side who said, oh, you 
know, you all just don't care about public health, look at all 
those lives we would have saved, you know, and you all are 
trying to block that rule from coming out, and then all of a 
sudden the President even says you went too far. That rule, 
that regulation would not have done those things. I have got to 
imagine--I am not going to speak for the President and you are 
not either, but I have got to imagine that the President had to 
disagree with your assessment that that would have saved lives 
or improved health because he wouldn't have rejected that rule 
if he thought rejecting that rule would make people more sick.
    And so I would just hope as the tone goes forward that as 
we are looking at these rules and regulations that we know are 
killing jobs, our job creators out there across the country are 
telling us how many jobs in each of their businesses these 
rules are killing. You know, you want to talk about health and 
safety, these are people that don't have jobs, they don't have 
health insurance, they don't have a lot of things because they 
don't have that job, and then you look at the assessments that 
are made by EPA, and even the President acknowledged clearly 
that the things that you are saying weren't accurate at least 
to his belief, our belief because he rescinded the rule. He 
wouldn't have rescinded the rule if he thought that was going 
to do something to improve health.
    So I hope as we are looking at these rules we can at least 
have an understanding that all these things should be put on 
the table, and just because somebody comes out and says we are 
going to save 20,000 hospital visits, that doesn't mean you are 
going to save 20,000 hospital visits.
    Mr. Bilbray. Would the gentleman yield?
    Mr. Scalise. You said that about other things.
    Mr. Bilbray. Would the gentleman yield?
    Mr. Scalise. I would be happy to.
    Mr. Bilbray. I think in all fairness, though, the President 
is saying, wouldn't you agree, that really was right now with 
the way the economy is, the way the jobs are, now is not the 
time to implement this, and in all fairness, he is not saying 
somewhere in the future you might----
    Mr. Scalise. Well, and I will reclaim my time, because what 
the President is saying, if the President really thought that 
implementing that rule would save lives or improve people's 
health and stop people from going to the emergency room, I 
really don't think he would have gone forward with it, you 
know, and he can correct me, you can correct me if you have 
heard differently.
    Ms. Jackson. I am not going to speak for the country. I 
will simply say that not every deregulatory push works out well 
for the country or the environment. In 2009, a company called 
another federal agency's rules an unnecessary burden. That 
agency wasn't EPA, it was the Minerals Management Service, and 
that company was Transocean, and we know what happened there.
    Mr. Scalise. We saw that they cut corners, and that had 
nothing to do with----
    Ms. Jackson. No, they----
    Mr. Scalise. They actually----
    Ms. Jackson [continuing]. Protesting regulation of their 
work.
    Mr. Scalise. And there are companies that we all know have 
played by all of the rules and they are being shut down today 
even though they didn't do anything wrong. And so while you may 
want to carry out your agenda, even the President has 
acknowledged that you have gone too far, and we have got to be 
concerned about jobs.
    I just want to put this into the record and ask a final 
question as my time is running out, specifically to talk about 
the Spill Prevention Containment and Countermeasure Rule that 
has been extended to farms, and then your agency--it was going 
to be a 5-year implementation. Your agency rolled that back or 
expedited and said in 2 years they have got to comply, meaning 
November of this year. Our small farmers out there are going to 
have put containment. They don't even know how much it is going 
to cost them, containment measures. Our Commissioner of 
Agriculture has asked your agency over a month ago if you would 
review--the Commissioner sent you a letter--if you would review 
either rescinding the rule or giving them an extension. They 
haven't heard back. I would hope you would look at that, and I 
would be happy to get you a copy of the letter, but look at the 
rule in general, what this is going to do, what kind of impact 
that regulation is going to do to our local farmers.
    Ms. Jackson. I am happy to do that, and the reason that I 
think we are looking at it very hard is because with the 
flooding in the Midwest and in other parts of the country, a 
lot of folks have not had time to comply with it.
    [The information appears at the conclusion of the hearing.]
    But it is an oil spill prevention rule as well, so----
    Mr. Scalise. Right, but in a lot of----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Scalise. The States do their own containment, and I 
would hope you would look at that letter, and I am sure others 
are out there too, and look at extending that or just 
rescinding it altogether.
    I appreciate it, and I yield back my time.
    Mr. Stearns. We will put your document in. I think the 
minority would like to look at your document first before we 
ask unanimous consent to do so.
    Ms. DeGette. Reserving the right to object.
    Mr. Stearns. Madam Administrator, we are going to do a 
second round. You have been kind enough to be here--oh, Mr. 
Gardner, the gentleman from Colorado--I thought you had spoken, 
I am sorry--is recognized for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, 
Administrator Jackson, for your time today.
    I have been told that EPA's Office of Compliance and 
Enforcement Assurance is verbally asking active hard-rock mines 
to voluntarily grant blanket access to EPA personnel to conduct 
site investigations under CERCLA. They have been described--
representatives of EPA have described the proposed inspections 
as part of an ongoing national enforcement initiative focused 
on hard-rock mining. Are these inspections related to EPA's 
stated intention under CERCLA 108(b) to promulgate a rule 
imposing additional financial assurance requirements in hard-
rock mines?
    Ms. Jackson. Not by your description, sir. It sounds more 
like this is as a result of a national enforcement initiative 
to reduce pollution from mineral processing, but I can double-
check that for you.
    Mr. Gardner. So they are not a part of the financial 
assurance?
    Ms. Jackson. Not to my knowledge but I can certainly 
confirm that for you.
    Mr. Gardner. And then could you clear up confusion about 
the reason for these inspections? Are they part of the national 
enforcement initiative or are they to support EPA's CERCLA 
108(b) rulemaking?
    Ms. Jackson. I believe they are the former, sir, but I will 
confirm that.
    Mr. Gardner. Is there any link between the two?
    Ms. Jackson. Not to my knowledge, sir, but I am happy to 
check on that for you.
    Mr. Gardner. I would appreciate that. How do these 
inspections relate to EPA's CERCLA Section 108(b) rulemaking?
    Ms. Jackson. I don't believe they are related, but I will 
double-check that for you.
    Mr. Gardner. And would you provide for the record copies of 
policies, guidance or other documents or records related to 
development by EPA of any program or initiative to identify 
hard-rock mining or mineral process sites that may be inspected 
or visited by EPA representatives and/or any contractors of the 
EPA under CERCLA Section 104(b) or as part of development of a 
rule pursuant to CERCLA that would impose financial assurance 
requirements on facilities in the hard-rock mining industry?
    Ms. Jackson. Certainly, sir.
    Mr. Gardner. Thank you. And do you happen to have any of 
that material with you today?
    Ms. Jackson. No, sir.
    Mr. Gardner. And I know the committee had called the office 
and warned that this question was coming. Will any of the data 
or information gathered during these inspections be used in the 
rulemaking process under CERCLA Section 108(b)?
    Ms. Jackson. I am sorry. Could you repeat the question?
    Mr. Gardner. Will any of the data or information that is 
gathered during these inspections be used in the rulemaking 
process under CERCLA Section 108(b)?
    Ms. Jackson. I don't believe so but that is the same 
question. I will double-check.
    Mr. Gardner. OK. And then how much money right now has been 
budgeted for this national hard-rock mining enforcement 
initiative for fiscal year 2012?
    Ms. Jackson. Let us see if I have it in any of the 
background I have. I don't know that I have a line item for 
that. If it is possible to get it, we are happy to get it for 
you. It is budged under our Office of Enforcement.
    Mr. Gardner. If you could get that, that would be great. 
And do you have any idea what is budgeted for CERCLA 108(b) 
rulemaking?
    Ms. Jackson. We will get you that as well.
    [The information appears at the conclusion of the hearing.]
    Mr. Gardner. Thank you. And I have been told as well that 
these companies obviously may be facing some costs of these 
inspections and the companies inspected will spend considerable 
time working with EPA, their contractors and others showing 
them onsite resources necessary to gather the information, 
reports, meetings, EPA personnel et cetera, and will these 
inspected companies be expected to bear any of the costs, the 
direct costs for EPA personnel and EPA contractors to visit the 
sites inspected under this initiative?
    Ms. Jackson. Enforcement cases are generally brought for 
violations of the law, and when they are, the penalties are 
generally assessed as penalties but not necessarily unless 
there are court cases is reimbursement sought.
    Mr. Gardner. So these just seem to be inspections. Are you 
aware of this initiative at all?
    Ms. Jackson. Certainly, generally, every year the EPA 
acknowledges what its federal priorities are for reducing 
pollution and for enforcement, and this is one of our 
priorities.
    Mr. Gardner. So is this just an inspection or an 
enforcement action?
    Ms. Jackson. Well, you do an inspection, and if nothing is 
wrong, there is no need for enforcement.
    Mr. Gardner. So is this a plan then to go into a number of 
these mines in different regions just to go in and inspect?
    Ms. Jackson. Certainly. Part of our authority allows us to 
go in and determine compliance with federal laws.
    Mr. Gardner. And is this part of CERCLA? This initiative, 
is it part of your CERCLA efforts?
    Ms. Jackson. I believe they would look for violations of 
all environmental laws including potentially violations of 
CERCLA law, but it would not be limited necessarily to that. It 
could be the Clean Water Act, it could be the Clean Air Act.
    Mr. Gardner. So are these--do you have a listing of the 
mines that you intend to inspect?
    Ms. Jackson. I don't know if such a list exists, but if it 
does, it may well be enforcement confidential since telling 
someone you are coming is a good way of assuring that you may 
not get a true picture of what they are really doing.
    Mr. Gardner. And then just a couple questions on energy 
prices. Do your regulations have an impact on electricity 
price?
    Ms. Jackson. Yes, sir.
    Mr. Gardner. What is an acceptable price increase for 
electricity?
    Ms. Jackson. Well, what we generally do is look at a price 
increase to determine impacts on the economy and also on 
reliability issues, and so what we know--I can't answer your 
question, but what we know is that the rules that have been 
discussed this morning, both final and proposed, have very low 
impacts on electricity prices.
    Mr. Gardner. But when a rule increases electricity prices 5 
percent, would that be acceptable?
    Ms. Jackson. Sir, it would depend on the rule. We look at 
costs and benefits and we also look at how those costs and 
benefits roll out over time, and often----
    Mr. Gardner. So it might be acceptable? A 5 percent 
increase might be acceptable?
    Ms. Jackson. It could potentially be.
    Mr. Gardner. What about 10 percent? Could a 10 percent 
price increase be acceptable?
    Ms. Jackson. That is a hypothetical that I simply cannot 
answer.
    Mr. Gardner. Who bears the burden most in our society with 
increased electricity prices?
    Ms. Jackson. Who bears the burden?
    Mr. Gardner. Yes, who do you think it hurts the most?
    Ms. Jackson. The ratepayers pay for electricity.
    Mr. Gardner. Does it hurt poor more than a disproportionate 
share of our population?
    Ms. Jackson. Of course, for people for whom energy is a 
large section of what they spend, then----
    Mr. Gardner. The answer is yes, increased electricity 
prices impact poor more than----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Gardner [continguing]. The rest of the population.
    Mr. Stearns. You are welcome to answer that.
    Ms. Jackson. Yes, it can if a greater portion of their 
disposable income is used for energy, then they can be hurt 
more, certainly.
    Mr. Stearns. We are now finished the first round. We are 
going to have another round. As you can see, there are fewer 
members so it will go quicker, and I will start with my 
questions.
    A small businessperson came up to me and talked to me about 
the EPA rule called the mud rule. I am not sure you or anybody 
else knows about it. In the event of construction of a site, 
there is stormwater that washes off or may wash off. EPA has 
stipulated exactly how construction of the site including the 
layout of the mud has to be, and of course, this increases the 
cost of construction and creates liability, particularly in 
light of the fact that EPA says if you don't comply, it is 
$37,500 every day for every infraction. Don't you think those 
kind of penalties are deterring business operations and it is 
important with a struggling economy that you don't put that 
fear that you could have $37,000, almost $40,000-a-day fee for 
how you structure mud when you are doing construction for a 
stormwater washout that may or may not occur?
    Ms. Jackson. Sir, the majority of water pollution in this 
country is caused by stormwater runoff and so the Nation's 
Clean Water Act asked EPA to develop national standards. It is 
important to note a couple of things----
    Mr. Stearns. Do you know about the mud rule?
    Ms. Jackson. Well, I know that States implement stormwater 
rules----
    Mr. Stearns. I mean, if you don't--I would be surprised if 
you do know about it. Do you know about it?
    Ms. Jackson. Of course I know about stormwater regulations.
    Mr. Stearns. No, no, about the mud rule. Have you ever 
heard of it?
    Ms. Jackson. Well, he may call it the mud rule but----
    Mr. Stearns. But you think it is stormwater rule? OK.
    Ms. Jackson. Sure, because when you mix water with dirt, 
some people call that mud, I guess.
    Mr. Stearns. But in light of the fact you just said 
yourself here that we have had 40 years of impact of the clean 
air bill and it has worked pretty good, and yet you seem to be 
pretty strong on increasing more regulation even with your own 
admission that the Clean Air Act has been working for over 40 
years. I mean, it is just--but I am trying to give you an 
example, a specific example where the stormwater act is really 
creating problems and scary for small people that are in 
construction.
    Ms. Jackson. Well, and the $37,000 or whatever figure he 
cited per day, sir, I would be happy to talk to him, but those 
are probably the statutory maximum penalties under the Clean 
Water Act, and I am not aware of any specific incident where 
that has been levied and certainly I am happy to look into your 
constituents' concerns.
    Mr. Stearns. How many employees do you have?
    Ms. Jackson. We have somewhere over 17,000. I think we may 
be as high as 18,000.
    Mr. Stearns. I think it is almost 18,000. And what is your 
yearly budget?
    Ms. Jackson. It depends on you, but I believe our budget 
this year is $8.4 billion or $8.5 billion.
    Mr. Stearns. In those 18,000 employees, do you do town 
meetings? Do you ever get around to see those 18,000 employees? 
I mean, do you have a strong feeling that those 18,000 people 
are needed? I mean, we just had an admission that the Clean Air 
Act is working, it has worked over 40 years. Do you think we 
need to continue to have 18,000 employees at the EPA?
    Ms. Jackson. I think we should operate as a----
    Mr. Stearns. Do you think you should have more?
    Ms. Jackson. No, sir, I am not advocating for more 
employees, and in fact, I am sure as you will see in budget 
discussions, EPA has been losing employees.
    Mr. Stearns. Would you agree that the EPA has a 
responsibility to communicate with the appropriate experts when 
assessing the impact of its rules? I think you would agree with 
that.
    Ms. Jackson. Yes, sir.
    Mr. Stearns. Would you agree that the Federal Energy 
Regulatory Commission, FERC, is the authority on electric 
reliability in the federal government? Would you agree with 
that?
    Ms. Jackson. I think that is a fair statement.
    Mr. Stearns. Do you believe that the EPA with respect to 
electric reliability has the same level of expertise, 
engineering skills and knowledge of electricity markets and 
systems as FERC staff?
    Ms. Jackson. No, but I do think we know our rules better 
than FERC staff, so it requires us to work together to look 
at----
    Mr. Stearns. So you don't think FERC knows the rules better 
than you do?
    Ms. Jackson. No, no, I said our rules. I think they know 
their rules and I think we know our rules and I think we have 
to work together to----
    Mr. Stearns. Well, what about with respect to electric 
reliability?
    Ms. Jackson. Well, that is their domain and so----
    Mr. Stearns. And so you would agree. I think we have a 
slide here. I think it is slide number 5. If you look at the 
estimates--do you have a copy there? She does. I think we just 
gave you a copy. Look at the estimates from FERC assessing the 
cumulative impacts of the EPA Power Sector Rules compared to 
EPA's analysis. Which should the public trust?
    Ms. Jackson. Well, sir, I am familiar with that particular 
FERC study and I know that the chairman has already testified 
that it is based on bad information. It looks at proposed rules 
that were never adopted and it looks at worst-case scenarios 
that aren't accurate, so I don't think that it should look at 
this data as being as accurate as EPA's in this case.
    Ms. DeGette. Mr. Chairman, where did this chart come from? 
It doesn't have an attribution.
    Mr. Stearns. Is there an attribution for the chart? I think 
it is FERC staff that gave us this.
    Let me just, before I finish here, just make an 
observation. On this side of the aisle, the Democrats keep 
saying the Republicans don't care about clean air and clean 
water because we oppose some EPA regulations, but I have given 
you the mud rule, for example, where the Republicans do object 
to that. You know, but the President himself has come out 
against these proposed ozone rules, and could you say under 
that scenario what the Democrats are saying, just because the 
President came out against the ozone rules that the President 
is against clean air? Is the President against clean water? Of 
course not. Of course not. So I think it is hyperboloid for the 
Democrats here to indicate that the Republicans don't care 
about clean air.
    But the question is, that the President and I think that 
the Republicans agree, is the continued fading in this country 
that EPA regulations are continuing to hurt this economy and 
costing us jobs and there has to be a balance, and I think the 
Republicans drink the same water, we breathe the same air as 
Democrats, and so does the President. We don't accuse him of 
the things that the Democrats are accusing us of, and frankly, 
the President recognizes as Republicans do that we need to 
throttle some of these regulations so we can get this economy 
going again, and with that, my time is expired.
    Ms. Jackson. Mr. Chairman, the President supports the 
mercury and air toxic standards and he supports the Cross-State 
Air Pollution Rule strongly.
    Mr. Stearns. Well, I understand, but this Ozone Rule that 
you wanted to propose, which he has asked you to stop, is an 
indication to me that he can't be--because of this, you can't 
accuse him of being against clean air or clean water is what my 
point is, and the Democrats are just saying because we are 
against some of these regulations including something like the 
mud rule that, you know--I mean, it just doesn't make sense.
    With that, I recognize the gentlelady from Colorado.
    Ms. DeGette. Sorry, Mr. Chairman, we are trying to figure 
out the genesis of these slides that you guys have been using 
today. We will keep working on that.
    Mr. Stearns. I think there is attribution in all of them.
    Ms. DeGette. Well, no, there is not, but we will figure it 
out.
    Mr. Stearns. Well, most of them.
    Ms. DeGette. I don't want to take my time to niggle about 
the slides.
    I want to ask you, Ms. Jackson, my friend from northern 
Colorado was asking you about, do utility rates, if they go up, 
do they disproportionately affect the poor, and obviously that 
is true if they are paying a larger percent of their income. I 
wonder if you could talk very briefly about the effect of 
pollution on the health of poor people. Does in particular 
particulate pollution but other types of pollution 
disproportionately affect the poor, and if so, why?
    Ms. Jackson. Well, you mean their budgets, of course, and 
so for the same reason for those who are poor who don't have as 
much money to spend on health care, on either prevention or 
dealing with the health effects of pollution--asthma, 
bronchitis, of course premature death. It has a huge toll in 
lives and in sickness and in missed days of work, missed days 
of school, missed opportunities to learn.
    Ms. DeGette. But also, as you know, I represent a very 
urban district, and there are large pockets of poor people in 
my district and I see numerous studies over the year that 
indicate poor people are disproportionately affected by 
pollution because they live in areas that tend to have more 
factories. In fact, we have several Superfund sites in my 
district, neighborhoods that have been contaminated by 
factories, and the children have higher incidences of asthma 
and other kinds of illnesses because they are closer to 
industrial areas. Are you aware of those studies, Ms. Jackson?
    Ms. Jackson. I am, and I agree that they show that poor 
people are disproportionately impacted by pollution because of 
where they live and because of sources of pollution in their 
communities.
    Ms. DeGette. Now, Mr. Gingrey had asked you--I have noticed 
a trend today of sort of the seminal question gets asked after 
the time has expired, thereby limiting your response to that 
question, and Mr. Gingrey asked you a question about the health 
effects of particulate pollution but then he didn't let you 
answer the question. So I want to ask you if you can tell us 
right now what your answer to that question is about the health 
effects of lowering the amount of particulates in the air?
    Ms. Jackson. Without a doubt, it is a fact. It has been 
proven by independent peer-reviewed science that particulate 
pollution kills. It causes premature death, and that has been--
that is not EPA scientists, those are independent scientists. 
It is subject to peer review, which is the standard by which 
good science is judged and it is backed up by public health 
officials.
    Ms. DeGette. Now, when your agency promulgates rules, do 
you make up the scientific studies to support those rules or do 
you rely in promulgating rules on independent scientific 
analyses?
    Ms. Jackson. We rely on independent, peer-reviewed, often 
re-reviewed scientific analysis.
    Ms. DeGette. And in my initial set of questions, I think I 
asked you, you also do make a cost-benefit analysis, correct?
    Ms. Jackson. That is right. All of our rules go with 
information on costs and benefits, and we are very proud of the 
fact that under this administration, we also do jobs analysis.
    Ms. DeGette. Now, the rules that you have promulgated, do 
the cost-benefit analyses seem to indicate that a large number, 
many more jobs would be lost than the health benefits to 
Americans?
    Ms. Jackson. No. In fact, the job losses when they occur or 
estimated in these rules are minimal, and in some cases, for 
example, the mercury rule, the proposal, there was a 31,000 
short-term construction job estimate and a 9,000 net long-term 
utility job increases, so those are actual job increases.
    Ms. DeGette. Now, when you do these cost-benefit analyses, 
do you also account for the number of jobs that would be 
created in the industries that develop and manufacture the 
technologies to comply with the rules or are those just 
additional jobs that come outside of that cost-benefit 
analysis?
    Ms. Jackson. No. When we do the jobs analysis, we look at 
that, but in the benefits analysis, I don't believe we look at 
jobs benefits. We look at public health benefits in our 
benefits. I will double-check that.
    Ms. DeGette. That would be helpful.
    One last question. Mr. Bilbray seemed to imply that because 
unemployment is high in California right now, it is because of 
the environmental standards that were enacted by the State of 
California some 20 or 30 years ago. Has the EPA seen any 
connection to current unemployment in California to the 
California environmental standards?
    Ms. Jackson. I am unaware of any--I am not aware of any 
economic study or any economist who is trying to link the 
current unemployment status in California or anywhere in this 
country to EPA regulatory action.
    Ms. DeGette. Thank you very much.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from Texas, Mr. Barton, is recognized for 5 
minutes.
    Mr. Barton. Thank you, and thank Madam Administrator for 
still being here. We appreciate that.
    I want to rephrase a question that I asked you in the first 
round. In your opinion, is it better to have a plant in 
compliance with existing regulations continue to operate or to 
shut that plant down because it cannot comply because of the 
cost of a proposed regulation?
    Ms. Jackson. In my opinion, that is rarely a choice that 
needs to be made either with time or through a market-based 
mechanism.
    Mr. Barton. Well, answer the question. Which is better? 
Because that is the question that hundreds, if not thousands, 
of individuals in the private sector are going to be deciding 
in the coming years if all these proposed EPA regulations go 
into effect.
    Ms. Jackson. Well, our job analysis doesn't show that, sir. 
I mean, that----
    Mr. Barton. Well, in my home State of Texas just last week, 
one company, one company announced the closure of two lignite 
coalmines and probably two coal-fired power plants in or near 
my Congressional district just last week.
    Ms. Jackson. I realize that and I realize what the company 
said, and I know the company is Luminant and, you know, I would 
quote the headline from the Houston Chronicle which says 
``Don't blame EPA over Luminant woes.'' Luminant has financial 
issues that date back far beyond the EPA public health 
standards.
    Mr. Barton. That is the $64 question, Madam Administrator. 
Is there any evidence of any criteria pollutant that is 
currently regulated by the Clean Air Act that is increasing in 
frequency in the United States?
    Ms. Jackson. Is there any--could you--I am sorry. Could you 
repeat it?
    Mr. Barton. Is there any evidence, monitored data evidence, 
of any criteria pollutant under the Clean Air Act that is 
increasing in density, in other words, that the air is getting 
dirtier anywhere in the United States?
    Ms. Jackson. No, but there are----
    Mr. Barton. No.
    Ms. Jackson [continuing]. Places where----
    Mr. Barton. No.
    Ms. Jackson [continuing]. There is nonattainment with 
criteria pollutant standards in the United States, Houston 
being a great example, Dallas another one, sir.
    Mr. Barton. In both of those cases, if the EPA had not 
strengthened the ozone standard in the last several years, 
those would be in compliance, and in any event, they are coming 
into compliance. So, you know, this Republican initiative in 
this Congress is not to roll back regulation. We are not 
lowering standards. We are not reducing standards. We are 
basically saying let us take a timeout until the economy can 
regain its footing, and that is what the President acknowledged 
when he pulled back on the ozone standard that you had 
announced. On that standard, Madam Administrator, did you 
support the President's decision to pull it back or did you 
oppose it?
    Ms. Jackson. I respected the decision when he made it, and 
we are implementing----
    Mr. Barton. I know that, but before it was made, you had 
some input into his decision. Did you support him rolling it 
back or did you oppose him rolling it back?
    Ms. Jackson. That is not the accurate question.
    Mr. Barton. It is the question I am asking.
    Ms. Jackson. I recommended something differently. He made a 
decision. I respect his decision.
    Mr. Barton. So you opposed his decision?
    Ms. Jackson. No, no, no. That is not right. I am 
implementing the decision the President made.
    Mr. Barton. I understand that. Your job is to implement----
    Ms. Jackson. I made a different recommendation. That is no 
secret. But I am implementing it.
    Mr. Barton. What was your recommendation?
    Ms. Jackson. I recommended a level lower than the current 
level of 75, sir, and it was----
    Mr. Barton. I am sorry?
    Ms. Jackson. It was 70.
    Mr. Barton. You recommended a different level?
    Ms. Jackson. That is right, sir.
    Mr. Barton. Now, I want to comment on something that 
Chairman Waxman said about the amendment, the Whitfield 
amendment. We have a requirement in that that as regulations 
are proposed, they use monitored data when available. Why would 
you oppose using monitored data when it is available as opposed 
to modeled data, which is not based on the real world?
    Ms. Jackson. It is not whether I oppose it if it is 
available. It is saying only monitoring data. In that case, you 
set a standard for rulemaking----
    Mr. Barton. Well, you have----
    Ms. Jackson. Let me just answer the question, Mr. Barton. 
That is impossible to meet and so you would forego all the 
health benefits----
    Mr. Barton. That is not true.
    Ms. Jackson [continuing]. For the eastern third of the 
country. You would indeed.
    Mr. Barton. There is not a power plant----
    Ms. Jackson. It is my expert belief----
    Mr. Barton [continuing]. Or a chemical plant----
    Ms. Jackson [continuing]. As head of the EPA is that you--
--
    Mr. Barton [continuing]. In this country that----
    Ms. Jackson [continuing]. Would not have a cross-state 
rule.
    Mr. Barton [continuing]. Isn't monitored 24/7.
    Ms. Jackson. Yes, but to determine whether or not the 
sulfur dioxide emissions coming from plants in Texas are 
affecting Illinois or affecting Louisiana, we do modeling, and 
that modeling is reviewed----
    Mr. Barton. That is not what the amendment says. You can 
use a model but you input monitored data. You input real data 
into the model. You don't use modeled data. That is what we are 
trying to get at. And in the case of this Cross-State Air 
Pollution Rule for Texas, it is the EPA modeled data, not the 
monitored data in the State of Texas or in Illinois or 
Michigan. The monitored data says they are in compliance. The 
EPA modeled data says in two cases they may not be.
    Ms. Jackson. The modeled data show that the transport from 
the plants in Texas are affecting and causing, will cause 
noncompliance downwind. Air blows across the country from west 
to east and the emissions in Texas, the second highest source 
of SO2 in the country----
    Mr. Barton. And most of the time----
    Ms. Jackson [continuing]. Affect places other than Texas.
    Mr. Barton. Most of the time in Texas, the prevailing winds 
are from the north to the south, Madam Administrator, not from 
the south to the north.
    Ms. Jackson. OK. Then you take my home area of New Orleans. 
I mean, yes, but it does blow. The wind blows pollution across 
and around the country.
    Mr. Barton. My time is expired.
    Mr. Stearns. I thank the gentleman.
    The gentlelady from Illinois, Ms. Schakowsky, is recognized 
for 5 minutes.
    Ms. Schakowsky. I wanted first to correct what I think was 
implicit, Mr. Chairman, in what you were saying, that somehow 
FERC opposed the rules that are affecting power plants, and I 
just want to quote some of the testimony at a September 14th 
hearing of our Energy and Commerce Committee. The experts did 
set the record straight. The Federal Energy Regulatory 
Commission chairman, Jon Wellinghoff, told the committee: ``We 
do not need to stop these rules from going forward. I think 
these rules are appropriate. These rules in fact do what needs 
to be done in this country.'' And FERC Commissioner John Norris 
testified: ``I believe that the EPA has adequately addressed 
reliability concerns and its statutory obligations with the 
rules established to date and I have no reason to believe that 
it cannot continue to so as it finalizes proposed rules.'' We 
had former DOE Assistant Secretary for Policy saying there is 
no reason to delay the implementation of the Clean Air 
Transport Rule or Utility Toxics Rule. So we had actually heard 
testimony that I think counters the implication that you were 
making.
    But here is what I want to ask you, Madam Administrator. 
You identified 35 regulations that will be subject to a near-
term review process designed to streamline and update the rules 
administered by the EPA. Is that right?
    Ms. Jackson. That is right.
    Ms. Schakowsky. And I am wondering if you might be able to 
highlight a few of the rules that you intend to update.
    Ms. Jackson. We have 16 short-term reviews that we are 
taking work on this calendar year, 2011. Those include 
equipment leak detection and repair rules to reduce the burden; 
that suggestion came from API, the American Petroleum 
Institute; increasing regulatory certainty for farmers, that is 
working with USDA and States; electronic reporting, which I 
believe came in from the regulated sector under a variety of 
statutes, vehicle regulations, harmonizing requirements and the 
list goes on. I could certainly submit it.
    Ms. Schakowsky. And actually, I would like to make sure 
that part of the record does include, Mr. Chairman, a list of 
the 35 regulations that will be subject to near-term review.
    Mr. Stearns. Does the gentlelady have a copy of those?
    Ms. Schakowsky. Can we get those?
    Ms. Jackson. I can certainly--can I just keep them until 
the hearing is over and give them to you?
    Mr. Stearns. Sure. You can certainly send them in to us.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. So I guess the point I wanted to make is 
that regulatory efficiency and effectiveness is a part of your 
agency's processes, always has been, if I am right, a part of 
your processes. Is that correct?
    Ms. Jackson. It has been, but we are also complying with 
the President's order to do a retrospective look back and that 
will be done every 5 years.
    Ms. Schakowsky. So can you discuss how that retrospective 
makes the regulatory process more efficient?
    Ms. Jackson. Well, as the President said, regulations are 
on the books and it makes good sense for agencies to constantly 
be scrubbing through them to ensure that as technology changes, 
as we moved into a computer age, for example, or as a great 
example, cars that now have secondary vapor recovery on their 
gas tank, having it on the actual pump, it just becomes 
redundant. So there is clearly opportunities which we found in 
our 20 public meetings and two public comment periods for 
places to make our rules more efficient and less burdensome.
    Ms. Schakowsky. So there was some question about whether 
industry has that kind of input, and you actually went out and 
solicited that not just in the comment periods but beforehand?
    Ms. Jackson. Yes, we had 20 different meetings around the 
country to solicit input. We also had a Web site that went up 
very early on and we had two public comment periods.
    Ms. Schakowsky. I also just wanted to point out that in 
your testimony, you report that agency reforms proposed or 
finalized prior to the President's Executive Order are going to 
save $1.5 billion over the next 5 years. So I want to 
congratulate you on an impressive record, and again, any 
implication that the EPA is looking just to maintain in place 
or even propose regulations that are redundant and any way not 
necessary to your mission is just not true. Thank you very 
much.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from Texas, Dr. Burgess, is recognized for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and again, 
Administrator Jackson, let me thank you for your indulging us a 
second round of questions today.
    You may be familiar that members of the Texas delegation on 
a bipartisan basis on this committee met with Mr. Sunstein of 
Office of Management and Budget right before the August recess 
concerning the Cross-State Air Pollution Rule and the seeming 
insensitivity to the problems that are going to exist in our 
State, so have you communicated with Mr. Sunstein in the Office 
of Management and Budget about these regulations and the burden 
that they impose?
    Ms. Jackson. I am aware that the meeting happened and I 
believe we had staff from the relevant program at the meeting.
    Mr. Burgess. And so what should members of the Texas 
delegation expect as a result of your discussions with Mr. 
Sunstein?
    Ms. Jackson. Well, we have also, not me personally but my 
deputy met with, I believe, members of the delegation, I 
believe that is right, last week but I know he also met with 
TCQ, ERCOT. We have several meetings, I have been in two, with 
Luminant itself, and we also of course have companies like NRG 
in Texas who say they can comply. So we are in discussions with 
a number of entities in Texas on that----
    Mr. Burgess. Will you provide us, the committee staff, with 
the minutes and memos and emails concerning those meetings 
between yourself and the Office of Management and Budget?
    Ms. Jackson. I didn't say I had--personal meeting? I did 
not have any, but is there anything with my staff, absolutely.
    Mr. Burgess. But your staff has, the agency has, and can we 
have the access to that information, the committee staff here?
    Ms. Jackson. I believe so, as long as it exists, we can get 
it to you.
    Mr. Burgess. Let me--you testified in response to an 
earlier question about, I think Mr. Stearns asked you about----
    Ms. Jackson. Oh, and to be clear, you mean minutes of the 
meeting with the Texas delegation?
    Mr. Burgess. No, minutes of meetings or communications 
between----
    Ms. Jackson. Oh, between us and the White House? That I am 
not sure we can provide, but we can certainly look and see. If 
we get a request----
    Mr. Burgess. I mean, it seems that if the White House is 
serious about regulatory reform, this is something where all 
parties should be anxious to work together, and it shouldn't be 
this adversarial relationship to try to get a problem solved. 
So people ask us to work together. I am asking you if we can 
work together to get this information so we can see how to 
solve a problem that is going to exist in my State. We were 
faced with several afternoons of possible blackouts last month. 
I don't want us to face real blackouts next summer because of 
the closure of coal-fired power plants to comply with the 
Cross-State Air Pollution Rule. Does that seem unreasonable?
    Ms. Jackson. No, not at all, sir.
    Mr. Burgess. Very well.
    Ms. Jackson. But I cannot promise you documents that may 
exist that are White House documents. They may be privileged. 
We can get you information regarding meetings we have had with 
delegation, ERCOT, TCQ and the company to the extent they are 
not privileged because we are in negotiations with them.
    Mr. Burgess. I would appreciate that. Of course, the White 
House should be anxious be they are the ones who issued the 
rules for regulatory relief earlier this year. So it seems like 
they should be anxious to work with us.
    Now, you testified in answer to Chairman Stearns' question 
about the number of employees at EPA, and I believe the number 
is somewhere between 17,000 and 18,000. Can you tell us how 
many employees have been hired under Title 42 provisions?
    Ms. Jackson. I don't have the number directly with me but 
we will get it to you. I think we already have gotten it to you 
before, so----
    Mr. Burgess. Will you provide us that information? 
Actually, the information was provided to a member of the 
National Treasury Union in response to a Freedom of Information 
Act request.
    The follow-up question to that is, can you provide us with 
a forward-looking statement as to how many Title 42 employees 
you are going to require in the future? How many do you 
anticipate having to hire within the next fiscal year?
    Ms. Jackson. Well, some of that will depend on, you know, 
when people decide to leave, which we can't know until they 
make those announcements. But from a general standpoint, Title 
42, which allows us to pay certain rates to very highly 
qualified scientists, is very closely controlled in our agency 
and it goes through a process of approval to ensure that we are 
justified.
    Mr. Burgess. And we as the Oversight Committee would like 
to ensure that those rules are being--that their compliance is 
in existence, and some of the job descriptions or job titles 
don't suggest that they are highly qualified scientists. They 
may be, forgive me, but relatively run-of-the-mill scientists. 
So if we are paying top dollar for biologists in this 
employment environment, maybe we ought to have an additional 
look at that.
    Mr. Chairman, I am going to ask, I have a couple of 
unanimous consent requests. The first is to have the letter 
from the Southwest Power Pool to Administrator Jackson made 
part of the record.
    Ms. DeGette. Mr. Chairman, perhaps Mr. Burgess could 
provide us with copies of those letters to review? And so 
pending that, I will reserve my right to object.
    Mr. Burgess. Very well. And also, the letter to a member of 
the National Treasury Employee Union, Chapter 280, from the 
Environmental Protection Agency about the Title 42 question. I 
would also like to have that made----
    Ms. DeGette. Once again, I will reserve the right to 
object.
    Mr. Burgess. --part of the record. Thank you, Mr. Chairman. 
I will reserve the right to submit additional questions in 
writing, and I will yield back the balance of my time.
    Mr. Stearns. The gentleman yields back. Time is expired.
    The gentleman from Virginia, Mr. Griffith, is recognized 
for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Administrator Jackson, aren't you concerned that the EPA 
rule published on March 21, 2011, that defines secondary 
materials that are solid waste rather than fuels when burned is 
going to create a disincentive to burn alternative fuels in 
boilers or cement kilns?
    Ms. Jackson. I have had discussions with my staff about 
potential unintended consequences with that rule, and we are 
discussing it as recently as this week.
    Mr. Griffith. And so you would agree that it is probably 
not the best environmental result to suddenly throw lots of 
landfill material like tires and tons of biomass that could 
have been used at paper mills into the solid waste-system or 
into the landfills?
    Ms. Jackson. Sir, we are still discussing it. I would agree 
that we need to be careful that there are no unintended 
consequences like those you may be describing, but I also want 
to make sure that air pollution--that air quality is protected.
    Mr. Griffith. Yes, ma'am. And let me stretch out a little 
bit and let me ask you this. Did the Solyndra plant in 
California have to comply with any EPA regulations that you are 
aware of?
    Ms. Jackson. Sir, I am happy to look but I don't know off 
the top of my head.
    Mr. Griffith. If you would look at that and also look to 
see if there are any delayed implementations or modifications 
of any EPA regulations, I would appreciate that, if you would.
    Ms. Jackson. I am happy to get that information for you.
    [The information appears at the conclusion of the hearing.]
    Mr. Griffith. And along those lines, were you involved in 
any of the discussions at the White House or the DOE in regard 
to Solyndra prior to 2011?
    Ms. Jackson. None, sir.
    Mr. Griffith. All right. I appreciate that. And I am just 
wondering if you had an opportunity to see the Commerce 
Department's analysis in regard to some of the EPA rules and 
regulations because while it is not available to the public, 
apparently there is a Commerce Department analysis that is 
being circulated that would indicate, particularly in regard to 
boiler MACT, that job losses could be between 40,000 and 
60,000. Have you seen that document?
    Ms. Jackson. I have seen references to unfounded studies 
but I can tell you, our range is 6,500 jobs created to 3,000 
jobs lost.
    Mr. Griffith. And most of the jobs if there is creation of 
jobs are going to be jobs in retrofitting the boilers. They are 
not going to be new manufacturing jobs. Isn't that correct?
    Ms. Jackson. Well, there are boilermakers, but there could 
be manufacturing of the pollution control equipment, baghouses, 
scrubbers. I actually met yesterday with a company that is 
building a factory. They make baghouses, and that is one of the 
technologies that would be put in place. They are hiring 
thousands of people I think in North Carolina.
    Mr. Griffith. And did I gather from your answer earlier 
that you all are still working on the situation with the 
definition of materials that are solid wastes in regard to 
boiler MACT and incinerators?
    Ms. Jackson. I have nothing to tell you today but you asked 
whether I had concern, and we are still continuing those 
discussions.
    Mr. Griffith. OK. And have you all acquired all the 
relevant data that you need to make those decisions?
    Ms. Jackson. If you have any, we are happy to take it, sir, 
especially from you, but I believe the staff have lots of data 
from the industry and have heard their concerns.
    Mr. Griffith. All right. I appreciate that and yield back 
my time, Mr. Chairman.
    Mr. Stearns. All right. The gentleman yields back the 
balance of his time.
    I think we have finished. We just have some concluding 
remarks by the ranking member and myself, but we have a number 
of documents that we want to put in the record by unanimous 
consent. I will allow the gentlelady from Colorado to indicate 
which ones she has approved, and we will put them in by 
unanimous consent.
    Ms. DeGette. Thank you, Mr. Chairman. Just to make a 
record, we have got the documents that Mr. Burgess had just 
referred to. One of them is a letter dated September 20, 2011, 
from the Southwest Power Pool. The other one is a document, 
Title 42 hiring practices at the U.S. EPA, that was apparently 
produced as the result of a FOIA request. So we won't object to 
those documents. There is a letter from the Louisiana 
Department of Agriculture and Forestry dated August 11, 2001, 
that Mr. Scalise had requested, and we don't object to that. 
There is, it looks like a page from the DOE Web site about 
mercury emission control R&D. We don't object to that.
    Then we have what appear to be three portions of EPA 
documents. We have got a cover sheet on each one, and then we 
have got portions of the documents. I must say that I was 
tempted to object to these on the basis that they are just 
incomplete, they are just portions of it, but as long as it is 
with the caveat that we all understand that they are just 
select portions of these documents, I won't object to those.
    And then finally, we have a little packet that was given to 
me and they are kind of different things, so I am going to 
reference each one. The first one is a chart. It says ``Figure 
6-14, Percent of Total PM-Related Mortalities Avoided by 
Baseline Air Quality Level.'' This appears to be one slide----
    Mr. Stearns. Is it possible you could approve these 
without----
    Ms. DeGette. No, sir.
    Mr. Stearns [continuing]. Giving your interpretation of 
each one?
    Mr. DeGette. No, I want to give a record as to what they 
are because some of them are subjective----
    Mr. Stearns. I mean, just list them, but you are now giving 
your interpretation of each one.
    Ms. DeGette. Well, in that case, I will just object to 
having it put in the record.
    Mr. Stearns. Well, I don't see why you would object. These 
are all----
    Mr. DeGette. Because I will tell you why, because they are 
from different places and I don't want people to give an 
inaccurate view of where they are from. The first document is 
one slide from a larger document on the EPA. The second page of 
that is a graph that was prepared by the majority committee 
staff. The third and fourth pages of this document are just 
charts or just quotes taken out of other documents prepared by 
the majority committee staff, and the final page 5 of that 
document is apparently a chart that was provided to the 
committee by FERC. So they are all from different sources. I 
just want to make that record, and with that caveat, I won't 
object to those, to that document.
    And then I have got a couple of documents as well. There is 
the document August 2011 by the U.S. Environmental Protection 
Agency, ``Improving Our Regulations: Final Plan for Periodic 
Retrospective Reviews of Existing Regulations.'' This contains 
all of the different regulations that someone had asked the 
Administrator to provide to this committee, so I would ask 
unanimous consent that that be placed in the record.
    Mr. Stearns. By unanimous consent, all the documents you 
have mentioned will be placed into the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Then I have two final documents, Mr. Chairman. 
These are both the studies that I mentioned in my opening 
statement about the positive job effect that environmental 
regulations can have, and I would ask--we have showed those to 
your staff and I would ask unanimous consent that those be 
entered into the record.
    Mr. Stearns. And they all have sources, right?
    Ms. DeGette. Yes, sir.
    Mr. Stearns. By unanimous consent, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. We have concluded our questioning. We are 
going to adjourn shortly. Does the gentlelady from Colorado 
have any concluding remarks?
    Ms. DeGette. Yes, sir, I do. I just want to reiterate our 
thanks to the Administrator for coming today, and I would also 
like to note after having sat here for now almost 3 hours, I 
haven't heard any evidence that the EPA regulations that are 
being proposed are actually having a detrimental effect on jobs 
in this country, and in fact, as the studies I just entered 
into the record indicate, thousands of new jobs in the clean 
energy environment will be created in addition to the thousands 
and thousands of lives that will be saved because of better 
environment, and the millions of people whose other respiratory 
illnesses and so on will be diminished because of these.
    So I just want to say it is easy to talk about regulatory 
reform, and nobody in this room including Administrator Jackson 
believes that we should have overly burdensome regulations. On 
the other hand, we need to look clearly at science when 
determining what those regulations should be and we need to 
balance in a scientific and careful way job creation and the 
preservation of public health. I think that is what the EPA is 
trying to do. I commend them for a very difficult, difficult 
evaluation and I urge them to keep it up because we need to 
protect the health of Americans while at the same time 
preserving our economy and creating jobs. Thank you.
    Mr. Stearns. I thank the gentlelady.
    I would just say in conclusion that the fact that the 
President opposed the EPA's proposed Ozone Rule would 
demonstrate that what the gentlelady indicated earlier, that 
the President also is worried about over-regulation coming from 
EPA and he had to step in, and I think Republicans are glad 
that he shares our same opinion.
    I think it was clearly demonstrated by Mr. Barton from 
Texas that the EPA has hurt jobs in Texas. He cited a couple 
power plants. The EPA Administrator thinks that is not true but 
the evidence is that it has killed two large companies over 
there and he also talked about plants in his Congressional 
district.
    I think the third point we pointed out is that no one is 
accusing anyone of trying to dirty America, whether it water or 
air. We are all on the same team. But we believe that over-
regulation by the EPA's 18,000-plus employees could damage the 
economy, and obviously the President agrees. What we worry 
about is the EPA must be justifying regulation by claiming 
benefits much, much larger than the science advisors' estimates 
of public health risk, and that violates the Executive Order 
and kills jobs. The President issued an edict from the White 
House saying he wants to roll back regulations. EPA is making 
an effort. I ask them to continue to do so.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
